<html>
<title> - THE EUROPEAN UNION AS A PARTNER AGAINST RUSSIAN AGGRESSION: SANCTIONS, SECURITY, DEMOCRATIC INSTITUTIONS AND THE WAY FORWARD</title>
<body><pre>[Senate Hearing 115-813]
[From the U.S. Government Publishing Office]


                                                       S. Hrg. 115-813

                  THE EUROPEAN UNION AS A PARTNER AGAINST 
                    RUSSIAN AGGRESSION: SANCTIONS, SECURITY,  
                    DEMOCRATIC INSTITUTIONS AND THE WAY 
                    FORWARD

=======================================================================

                                HEARING

                               BEFORE THE

                     COMMITTEE ON FOREIGN RELATIONS
                          UNITED STATES SENATE

                     ONE HUNDRED FIFTEENTH CONGRESS

                             FIRST SESSION

                               __________

                             APRIL 4, 2017

                               __________

       Printed for the use of the Committee on Foreign Relations

[GRAPHIC NOT AVAILABLE IN TIFF FORMAT]


                   Available via the World Wide Web:
                         http://www.govinfo.gov

                               __________
                               

                    U.S. GOVERNMENT PUBLISHING OFFICE                    
40-444 PDF                  WASHINGTON : 2020                     
          
--------------------------------------------------------------------------------------



                 COMMITTEE ON FOREIGN RELATIONS        

                BOB CORKER, Tennessee, Chairman        
JAMES E. RISCH, Idaho                BENJAMIN L. CARDIN, Maryland
MARCO RUBIO, Florida                 ROBERT MENENDEZ, New Jersey
RON JOHNSON, Wisconsin               JEANNE SHAHEEN, New Hampshire
JEFF FLAKE, Arizona                  CHRISTOPHER A. COONS, Delaware
CORY GARDNER, Colorado               TOM UDALL, New Mexico
TODD YOUNG, Indiana                  CHRISTOPHER MURPHY, Connecticut
JOHN BARRASSO, Wyoming               TIM KAINE, Virginia
JOHNNY ISAKSON, Georgia              EDWARD J. MARKEY, Massachusetts
ROB PORTMAN, Ohio                    JEFF MERKLEY, Oregon
RAND PAUL, Kentucky                  CORY A. BOOKER, New Jersey
                  Todd Womack, Staff Director        
            Jessica Lewis, Democratic Staff Director        
                    John Dutton, Chief Clerk        

                              (ii)        


                            C O N T E N T S

                              ----------                              
                                                                   Page

Corker, Hon. Bob, U.S. Senator From Tennessee....................     1


Cardin, Hon. Benjamin L., U.S. Senator From Maryland.............     2


O'Sullivan, David, Head of Delegation, European Union Delegation 
  to the United States, Washington, DC...........................     4
    Prepared statement...........................................     7


Volker, Hon. Kurt, Executive Director, The McCain Institute for 
  International Leadership, Arizona State University, Washington, 
  DC.............................................................    34
    Prepared statement...........................................    35


Baer, Hon. Daniel B., Former Ambassador to the Organization for 
  Security and Cooperation in Europe, Denver, CO.................    37
    Prepared statement...........................................    39

              Additional Material Submitted for the Record

Responses of David O'Sullivan to Questions Submitted by Senator 
  Benjamin L. Cardin.............................................    52


Response of Hon. Daniel B. Baer to Question Submitted by Senator 
  Todd Young.....................................................    55


                             (iii)        

 
THE EUROPEAN UNION AS A PARTNER AGAINST RUSSIAN AGGRESSION: SANCTIONS, 
         SECURITY, DEMOCRATIC INSTITUTIONS AND THE WAY FORWARD

                              ----------                              


                         TUESDAY, APRIL 4, 2017

                                       U.S. Senate,
                            Committee on Foreign Relations,
                                                    Washington, DC.
    The committee met, pursuant to notice, at 10:17 a.m. in 
room SD-419, Dirksen Senate Office Building, Hon. Bob Corker, 
chairman of the committee, presiding.
    Present: Senators Corker [presiding], Rubio, Gardner, 
Young, Barrasso, Portman, Cardin, Menendez, Shaheen, Coons, 
Udall, Murphy, Kaine, Markey, Merkley, and Booker.

             OPENING STATEMENT OF HON. BOB CORKER, 
                  U.S. SENATOR FROM TENNESSEE

    The Chairman. The Foreign Relations Committee will come to 
order. I thank everyone for being here.
    We are here today to talk about Russia and how the European 
Union and the United States can work together to push back 
against Russia's aggression.
    One hundred years ago this week, the United States entered 
into World War I. Since then, if not long before, our country's 
national interests have been closely linked with those of our 
European allies. Our shared set of interests and policies is 
clear on how the United States, the European Union and its 
member states deal with many things, including terrorism, 
trafficking in persons, and the threats posed by a resurgent 
Russia. Russia-related efforts include transatlantic sanctions, 
as well as security-oriented efforts in Georgia and Ukraine.
    We have thus far worked together against Russia's negative 
influence and must continue to do so despite President Putin's 
best attempts to divide us.
    We have seen some of those attempts here in the United 
States. As the intelligence community made clear on January the 
6th, the Russian Government was responsible for stealing and 
sharing information from the email accounts of politicians and 
members of their staffs. Whether or not Russia played an even 
larger role in our elections is still being exhaustively 
examined by multiple parts of the U.S. Government, including 
the Senate Select Committee on Intelligence. These are 
inquiries that I fully support, and I remain in close contact 
with both Chairman Burr and Vice Chairman Warner as their work 
continues.
    As those investigations progress, today's hearing is an 
opportunity to look forward and to understand how our 
transatlantic efforts to push back against Russian aggression 
can continue and possibly expand.
    In looking ahead, we must be particularly conscious of the 
concerns that Russia will also attempt to influence European 
elections this year.
    Before we move to today's testimony, though, I do want to 
express my sincere sympathies to the families of the 11 
Russians killed yesterday in St. Petersburg and over 40 
Russians who were wounded in terrorist attacks across their 
great city. We may have serious differences with the Russian 
Government, but we stand with the people of Russia against 
terrorism that is a common threat to all of us.
    I look forward to hearing today about the new realities and 
challenges facing our transatlantic partnership and how we can 
continue to work together in the years ahead.
    And with that, I turn to my friend, our ranking member, 
Senator Ben Cardin.

             STATEMENT OF HON. BENJAMIN L. CARDIN, 
                   U.S. SENATOR FROM MARYLAND

    Senator Cardin. Well, thank you, Mr. Chairman. And I 
particularly appreciate this hearing. I think it is very, very 
important that we share a lot in our transatlantic partnership, 
and one of the things we share is that we are all targeted by 
Russia's activities to our democratic institutions.
    But before I comment about the specific subject, I join you 
in our concerns about what happened in St. Petersburg. And I 
issued a statement about that terrorist attack. But this 
morning we are learning that there was now another gas attack 
in Syria that looks like it was not chlorine, that it was a 
more serious chemical agent. It could very well be sarin even 
though we have been informed that all of the gas elements were 
removed from Syria. And the number of victims appear to be much 
more serious than any recent attack of chemical weapons in 
Syria. And this could only be done by the Assad regime. And, of 
course, Russia is supporting the Assad regime's use of this 
type of warfare.
    So, Mr. Chairman, it just points out the seriousness of the 
activities that are taking place in Syria, the fact that Russia 
is enabling the Assad regime to break any form of standards as 
far as the use of chemical weapons, and now women and children 
again have been murdered as a result of the Assad regime's 
commission of war crimes. I expect that the international 
community needs to stand stronger to make sure those that are 
responsible for these atrocities are held accountable.
    As we all know, the Russian Government sought to influence 
the U.S. presidential election last November. They attacked the 
United States. As elected officials, it is our solemn 
responsibility to understand what happened and to ensure 
decisive, comprehensive action that protects our democracy.
    Vladimir Putin has not rested on his laurels since November 
the 8th. A number of European countries have important 
elections this year, and we are seeing some of the same tactics 
of disinformation and interference across the continent. 
Putin's elections interference is more strategic and sinister 
than just meddling. Putin, as the head of a regime based on 
corruption and cronyism, has a fear of democracy, which is why 
he works so hard to suppress it at home and abroad. His aim is 
to undermine the international democratic values and structures 
that have kept the world safe for 70 years and enshrined 
fundamental human rights, breaking up the European Union, 
shaking confidence in the American electoral system. These 
tactics are part and parcel of a bigger aim.
    So the nature of our response is critical, and the stakes 
could not be higher. And to this point, the administration's 
Russia policy has been contradictory and confusing with high 
level officials contradicting the President's positions.
    I am particularly concerned about the upcoming elections in 
France and Germany.
    In France, we have already seen a view in WikiLeaks of fake 
news stories discrediting candidates. This is the same Kremlin 
playbook that we saw in last year's elections here. There are 
reported financial ties between the Kremlin and the far right 
National Front Party and its leader, Marine Le Pen, who just 
last week was with Putin in Moscow. With the first round of 
voting fast approaching on April 23rd and a subsequent 2-week 
period until the second round, French voters sit squarely in 
the sight of Putin's weapons of disinformation and 
interference.
    Germany has been Putin's target for years. In 2015, members 
of the Bundestag and Chancellor Merkel's party were allegedly 
hacked by Russian Government elements. The head of the German 
federal criminal police pointed last month to 10 offices that 
were hacked and said that the significant data drain could be 
used to influence upcoming elections in September.
    I am also deeply concerned about the Russian Government's 
increased presence in the western Balkans. Putin's regime has 
increased pressure on Bosnia and Serbia. The Kremlin was behind 
a plot last fall to forcefully take over the Montenegrin 
parliament, install a new government hostile to NATO. 
Thankfully, Montenegro emerged unscathed, and I am proud that 
the Senate recently approved the country's accession into the 
alliance.
    The Russian Government's assault on the European 
partnership requires a comprehensive, strong response. We have 
seen no action from this administration to counter fresh 
Russian disinformation. I am afraid that the administration is 
simply not serious in its response to the significant threat, a 
reckless posture given the stakes.
    Many of us in the Senate have refused to sit on our hands. 
I was proud to draft legislation earlier this year that now is 
supported by 10 Republicans and 10 Democrats. The Countering 
Russia Hostilities Act would codify and strengthen sanctions on 
the Russian Federation for its aggression in Ukraine, Syria, 
and the United States and would establish a European democracy 
initiative to run in parallel to our security efforts to 
bolster European states' resilience. Members of this committee 
on both sides of the aisle are cosponsors, and the bill has 
been referred to our committee. It is a serious, substantive, 
and comprehensive bill, and I hope it will be marked up soon.
    Americans and Europeans need to speak with one voice on the 
important transatlantic values we hold dear: democracy, human 
rights, and the just, accountable rule of law. We must develop 
an affirmative agenda to deliver on the democratic hopes of all 
of our citizens, including our most vulnerable and 
marginalized. I welcome the ideas of how we can strengthen the 
ties between both Europe and the United States.
    I look forward to hearing from our witnesses today. We have 
a distinguished representative from the European Union, and we 
thank you for being here. I also look forward to the 
distinguished members of our second panel.
    The Chairman. Thank you.
    Just in reference to what happened in Syria, I appreciate 
you bringing that up. I know that this committee passed out an 
Authorization for the Use of Force in 2012 that, had it been 
acted upon, I feel we would be in a very different place. And 
that action was not taken. It was a 10-hour operation, as I 
understand it, based off the Mediterranean that would have put 
Assad on his heels, and that action was not taken. Instead, we 
figuratively jumped in Putin's lap, and that was the first 
beginning of empowering Putin in Syria and asking him to, 
quote/quote, work with the Syrian Government to get chemical 
weapons out, which obviously never fully occurred.
    So I could not agree more that Russia has empowered Assad 
to do what he is doing. But I would also say that the Western 
world did not take, in my opinion, steps that should have been 
taken at that time to keep what has happened or happening--
500,000 people dead, people being tortured. I know the 
Ambassador is very aware of all of that. Again, it is a blight 
on the Western world in my opinion, and I am glad that we have 
a witness here to talk about Russia today.
    Our first witness is His Excellency David O'Sullivan, 
Ambassador and Head of the EU Delegation to the United States. 
Ambassador O'Sullivan previously served as Chief Operating 
Officer of the European External Action Service and has held a 
number of senior positions within the European Commission.
    Thank you so much for being here today. I know that you are 
probably a little concerned about being here and the kinds of 
questions that you will be asked. So thank you even more so for 
being here.
    If you could summarize your comments in 5 minutes or so, we 
would appreciate it. Obviously, we are not going to cut you 
off. But your written testimony, without objection, will be 
entered into the record. And again, thank you for the courtesy 
of being here today. We look forward to your testimony.

     STATEMENT OF HIS EXCELLENCY DAVID O'SULLIVAN, HEAD OF 
  DELEGATION, EUROPEAN UNION DELEGATION TO THE UNITED STATES, 
                         WASHINGTON, DC

    Ambassador O'Sullivan. Well, Chairman Corker, Ranking 
Member Cardin, members of the committee, thank you very much, 
indeed, for your invitation to testify before the United States 
Senate Committee on Foreign Relations. And I am very honored to 
have this opportunity.
    I am not too worried about the questions, Chairman. I am 
told there is no such thing as an indiscreet question, only 
indiscreet answers.
    But if I may at the outset just echo, sir, your remarks 
about the terrible events in St. Petersburg and the terrorist 
tragedy there and our sympathy to the families of the deceased 
and the injured in this very, very awful event.
    Sir, as you said in your introductory remarks, this year 
the European Union is celebrating its 60th anniversary of its 
founding document, the Treaty of Rome. And I would like to 
express my deep appreciation to Senator Shaheen and her 
cosponsor, Senator McCain, for introducing a Senate resolution 
that commemorates that occasion.
    And this year, we also celebrate the 70th anniversary of 
the Marshall Plan which, after two World Wars, helped launch 
the common project of building a new Europe committed to peace 
and prosperity. And I think I can speak for all Europeans when 
I say that we are humbled and always grateful for the sacrifice 
of the American service men and service women who gave their 
lives to help free Europe. And you mentioned the anniversary of 
the entry into the First World War of the United States, which 
will be commemorated in Missouri, I believe, in 2 days' time.
    Since then, fortunately, we have come a long way, and 
Europe has always been the United States' closest partner and 
the other way around, to the benefit of our peoples on both 
sides of the Atlantic. As for the European Union, we are 
continuing to work with the new administration and the U.S. 
Congress in a relationship that is and will always be based on 
the friendship that ties our peoples and our respective values, 
principles, and interests. Both European Council President Tusk 
and European Commission President Juncker have had very cordial 
discussions with President Trump on the telephone. And European 
High Representative Federica Mogherini, Presidents Tusk and 
Juncker hosted Vice President Pence for an early and very 
positive February visit to Brussels. High Representative 
Mogherini has visited Washington twice already this year to 
meet with Vice President Pence, National Security Advisor 
McMaster, Secretary Tillerson, Secretary Mattis, and with many 
Members of Congress, including yourself, sir, and the ranking 
member.
    We both benefit from this strategic alliance, and it is 
self-evident from our economic relationship. Eighty percent of 
U.S. foreign direct investment comes from Europe. Some 15 
million jobs on both sides of the Atlantic depend on our mutual 
trade. And together, we represent some 50 percent of world GDP 
and 30 percent of world trade. The European Union is and will 
continue to be, even when the United Kingdom leaves the EU at 
the end of negotiations that will last 2 years, the second 
economy of the world and the first single market.
    But, of course, our links go beyond economics and trade. We 
are essential partners when it comes to foreign policy and 
security policy, counterterrorism, and defense. The European 
Union is a global security provider. We have 16 military and 
civilian missions around the world, and we started a new 
partnership with NATO with 42 common actions to counter hybrid 
and cyber threats in particular. We are your closest ally in 
the fight against Daesh, and we stood in full solidarity with 
the U.S. following the 9/11 attacks. And for more than a 
decade, we have been closest partners in Afghanistan. Our 
service men and women have always fought on the same side and 
sometimes, sadly, lost their lives on the same battlefield.
    The European Union also plays a fundamental role in the 
western Balkans, which you mentioned, Senator Cardin, again in 
close cooperation with the United States, investing in 
security, democracy, rule of law, economic opportunities, and 
peace in the Balkans.
    We are the first donor when it comes to humanitarian and 
development aid worldwide, and all of this to show that the 
European Union is a reliable, trusted, and credible global 
actor, a role we are on our way to increase along the lines 
High Representative Mogherini indicated last year in the EU 
global strategy.
    It is in this context of increased EU capability and 
transatlantic partnership that we address our policies toward 
Russia. After the end of the Cold War, neither the European 
Union nor the United States has ever approached Russia as an 
adversary. Through a vast range of policies, development of 
mutually beneficial economic relations, cultural exchanges, and 
thematic dialogues, the European Union aimed at building a 
strategic partnership with Russia.
    However, Russia's illegal annexation of Crimea and the 
conflict in eastern Ukraine have seriously damaged EU-Russia 
relations. Sovereign equality, the non-use of force, and 
territorial integrity are core principles for peace and 
security, and their respect is and remains key for the European 
Union.
    The European Union and the United States, along with others 
in the international community, have taken a principled 
position against the illegal annexation of the Crimean 
Peninsula, which we do not recognize, and against Russia's 
actions in eastern Ukraine. And we have adopted a package of 
restrictive measures that we intend to maintain until the full 
implementation of the Minsk Agreement. Close transatlantic 
coordination has been crucial for the effectiveness of the 
these measures.
    Russia is a permanent member of the U.N. Security Council 
and remains a strategic country when it comes to addressing 
many crises. As the U.S. did in recent years, the European 
Union has cooperated with Russia on many dossiers, whether on 
counterterrorism or on the crisis in Syria or on the Middle 
East peace process, the Iranian nuclear file, or on Libya.
    That is why we unanimously decided as the European Union to 
be guided by five principles when it comes to our policy on 
Russia.
    First and foremost, the EU will continue to support Ukraine 
and support a solution to the conflict in eastern Ukraine based 
on the complete implementation of the Minsk agreements. The 
European Union is also politically and financially supporting 
reforms to consolidate Ukraine's democracy and governance. EU-
U.S. cooperation on support for the reform process in Ukraine 
is excellent, as is coordination within the G7 framework.
    Second, we are strengthening the EU's relations with our 
eastern neighbors through our Eastern Partnership and our 
Neighborhood Policy, cooperating with the institutions to 
promote democracy, the rule of law, respect for human rights, 
and social and economic development.
    Third, in the light of disinformation operations, the 
European Union is building up its resilience. As the European 
Union, we set up 1 year ago a strategic communications unit in 
the External Action Service that monitors and alerts on 
disinformation campaigns and provides correct and factual 
information on European Union policies.
    Fourth, we will continue selectively to engage with Russia 
as necessary and in accordance with EU interests on foreign and 
security policy issues. For example, Russia has been invited to 
attend the conference on the future of Syria and the region 
that we will host tomorrow in Brussels. On these and on other 
crucial issues, we will continue to engage with Russia.
    The fifth and final principle--and I am nearly finished, 
sir--of the EU's approach is our continued support for Russian 
people, Russian civil society, and for contacts between the 
European Union and Russian citizens. This is why work continues 
on cross-border cooperation, education, science and research 
cooperation, among others.
    So, Mr. Chairman, our transatlantic policy towards Russia 
has been united and credible. More than ever in this complex 
and fragile world, that is what is needed, both cooperation and 
partnership. This is true for the European Union and we believe 
this is also true for the United States.
    I thank you, sir.
    [The prepared statement of Ambassador O'Sullivan follows:]

                 Prepared Statement of David O'Sullivan

    Chairman Corker, Ranking Member Cardin, Members of the Committee, 
thank you for your invitation to testify before the United States 
Senate Committee on Foreign Relations. I am honoured to have this 
opportunity.
    As you know, the European Union recently celebrated the 60th 
anniversary of its founding document, the Treaty of Rome. I want to 
express my deep appreciation to Senator Shaheen, and her co-sponsor 
Senator McCain, for introducing a Senate resolution that commemorates 
this occasion. This year we also celebrate the 70th Anniversary of the 
Marshall Plan, which after two World Wars helped launch the common 
project of building a new Europe committed to peace and prosperity. I 
think I can speak for all Europeans when I say we are humbled by the 
sacrifice of American service men and women who gave their lives to 
help free Europe.
    Since then, we have come a long way and Europe has always been U.S. 
closest global partner, and the other way around, to the benefit of our 
peoples on the two shores of the Atlantic. And as the European Union, 
we are continuing to work with the new administration and the U.S. 
Congress, in a relationship that is and will always be based on the 
friendship that ties our peoples, and on our respective values, 
principles and interests. Both European Council President Tusk and 
European Commission President Juncker have had very cordial discussions 
with President Trump. With EU High Representative Federica Mogherini, 
Presidents Tusk and Juncker hosted Vice President Pence for an early 
and very positive February visit to Brussels. High Representative 
Mogherini has visited Washington twice already this year to meet with 
Vice-President Pence, National Security Advisor McMaster, Secretary 
Tillerson, Secretary Mattis, and with many Members of Congress, 
including Chairman Corker, Ranking Member Cardin, and other members of 
this Committee.
    The United States and the European Union both benefit from this 
strategic alliance. This is self-evident for our economic relationship. 
Fully 80 percent of U.S. Foreign Direct Investment comes from Europe. 
Some 15 million jobs on both sides of the Atlantic depend on our mutual 
trade. Together, we represent 50 percent of world GDP and 30 percent of 
world trade. The European Union alone is, and will be also once the 
U.K. will leave the EU--at the end of negotiations that will last 2 
years--the second economy of the world and the first single market.
    Of course, the links between Europe and the United States extend 
far beyond economics and trade. We are essential partners when it comes 
to foreign and security policy, counter-terrorism, and defence. The 
European Union is a global security provider: we have 16 military and 
civilian missions. As the European Union, we have started last year a 
new partnership with NATO with 42 common actions, particularly to 
counter hybrid and cyber threats. Europe is your closest ally in the 
fight against Daesh. Europe stood in full solidarity with the United 
States following the 9/11 attacks and for more than a decade we have 
been closest partners in Afghanistan: our service men and women have 
always fought on the same side and sometime sadly lost their lives on 
the same battlefields. The European Union also plays a fundamental role 
in the Western Balkans, again in close cooperation with the United 
States, investing in security, democracy, rule of law, economic 
opportunities--and peace, in the Balkans. The European Union is the 
first donor when it comes to humanitarian and development aid 
worldwide. All this to say that the European Union is a reliable, 
trusted and credible global actor, a role we are on our way to increase 
along the lines HRVP Mogherini indicated last year in the EU global 
strategy.
    It is in that context of increased EU capability and transatlantic 
partnership that we address also our policies toward Russia. After the 
end of the Cold War neither the European Union nor the United States 
have ever approached Russia as an adversary. Throughout a vast range of 
policies, development of mutually beneficial economic relations, 
cultural exchanges and thematic dialogues, as the European Union we 
aimed at building a strategic partnership with Russia.
    Russia's illegal annexation of Crimea and the conflict in eastern 
Ukraine have seriously damaged EU-Russia relations. Sovereign equality, 
the non-use of force and territorial integrity are core principles for 
peace and security and their respect is and remains key for the 
European Union.
    The European Union and the United States, along with others in the 
international community, have taken a principled position against the 
illegal annexation of the Crimean peninsula, which we do not recognise, 
and against Russia's actions in eastern Ukraine. We have adopted a 
package of restrictive measures that we have agreed to maintain till 
the full implementation of the Minsk agreement.
    Close transatlantic coordination has been crucial for the 
effectiveness of these targeted measures.
    Nonetheless, Russia is a permanent member on the U.N. Security 
Council and remains a strategic country when it comes to addressing 
many crises. As the U.S. did in recent years, the European Union has 
cooperated with Russia on many dossiers, being on counterterrorism or 
on the crisis in Syria, on the Middle East peace process, on the 
Iranian nuclear file, on Libya.
    That's why last year we unanimously decided as EU to be guided by 
five principles when it comes to our policy on Russia.
    First and foremost, the EU will continue to support Ukraine and 
support a solution to the conflict in Eastern Ukraine based on the 
complete implementation of the Minsk agreements. The European Union is 
also politically and financially supporting reforms to consolidate 
Ukraine's democracy and governance. EU-U.S. cooperation on support for 
the reform process in Ukraine is excellent, as is coordination within 
the G7 framework.
    Second, we are strengthening the EU's relations with our Eastern 
neighbours, through the Eastern Partnership and our Neighbourhood 
Policy--cooperating with the institutions to promote democracy, rule of 
law, respect for human rights, and social and economic development.
    Third, in light of disinformation operations the European Union is 
building up its resilience: as EU, we have set up one year ago a 
strategic communications unity in the external actions service that 
monitors and alerts on disinformation campaigns, and provides correct 
and factual information on European Union's policies.
    Fourth, we will continue to selectively engage with Russia as 
necessary and in accordance with EU interests on foreign and security 
policy issues. For example Russia has been invited to attend the 
conference of the future of Syria and the region we will host tomorrow 
in Brussels. On these and other critical global issues, we will 
continue to engage Russia.
    The fifth and final principle of the EU's approach is our continued 
strong support for Russian people, Russian civil society, and for 
contacts between EU and Russian citizens. This is why work continues on 
cross-border cooperation, education, science and research cooperation--
among others.
    Mr. Chairman, our transatlantic policy towards Russia has been 
united and credible. More than ever in this complex and fragile world, 
what is needed is cooperation and Partnership. This is true for the 
European Union and it's true for the United States.

    The Chairman. Thank you.
    I might ask just a couple of questions and then, as usual, 
move to our ranking member for more fulsome questions and 
reserve the rest of my time.
    I know that many of us on both sides of the aisle were very 
concerned coming in that there was a potential that this 
administration might do, for lack of a better word, a cheap 
grand bargain with Russia on Syria. I think there was 
legitimate concerns on both sides of the aisle. I think they 
have evolved some, and I think the atmosphere itself has 
evolved.
    You are talking to your U.S. counterparts here. Do you get 
any sense at all that the administration currently is planning 
to lift the sanctions that we have worked closely with Europe 
on relative to what has happened in Ukraine and Crimea?
    Ambassador O'Sullivan. No. The conversations we have had 
with the administration on this subject, as on many others, has 
been very reassuring, and we have no such indication. And I 
think there is still remarkable unity of purpose between the 
United States and the European Union with regard to those 
issues.
    The Chairman. So there is no fear on your part that the 
United States is getting ready to act independently relative to 
these issues and undermine the cohesiveness that we now have 
relative to Russia, Ukraine, Crimea, and other issues.
    Ambassador O'Sullivan. No, sir, not at this point in time 
at all.
    The Chairman. I will say just as an observation, I find, in 
this body, where you stand is based on where you sit. We have 
got an Iran sanctions bill that has a number of cosponsors that 
we are unable to mark up at present because of concerns about 
how the European Union might react and elections that are 
coming up.
    On the other hand, there is a Russia bill--it is very 
broad-based--that would unilaterally impose sanctions on broad 
energy sectors in Russia on top of what is now in place: gas, 
pipelines, those kinds of things.
    Are these the kind of things that you would like, Mr. 
Ambassador, for us to work closely with you guys on? Or do you 
think it is good for us to go ahead and move out unilaterally 
in this particular case?
    Ambassador O'Sullivan. Mr. Chairman, I think the enormous 
strength of our policy and in particular our sanctions policy 
has been its very close coordination. We have moved in lockstep 
throughout this process, and I think that has not only ensured 
the right political response but also the effectiveness of the 
sanctions. It is well known that the European Union has perhaps 
even closer economic ties with Russia, and therefore, whatever 
we do has perhaps more impact than what can be decided by the 
United States alone. And I think it would be very important 
that before moving in the direction that you have indicated, we 
coordinate very closely because I think it is possible that 
measures of the kind you mentioned could have an adverse effect 
on the European Union.
    The Chairman. There would be a pretty big blowback, would 
it not, on the European Union?
    Ambassador O'Sullivan. I am sorry, sir?
    The Chairman. There would be a pretty big blowback, would 
there not be, on the European Union relative to the energy 
component?
    Ambassador O'Sullivan. Yes. We would need to look more at 
the details, but some of the ideas which we have seen discussed 
could, indeed, have a rather serious impact on the European 
energy sector. We are diversifying. We have a very strong 
policy of diversification. But the fact is we are still--many 
of our member states are heavily dependent upon imports from 
Russia, and it will be very important not to destabilize that 
situation, which is of vital interest for many of our member 
states.
    The Chairman. Well, we thank you for being here. I think 
that the committee generally senses a unique opportunity, one 
we have never had since I have been here, to work closely with 
an administration on developing policies in various areas. I am 
sure there is going to end up potentially being disagreement. 
But I see that as an opportunity for us. We are trying to build 
upon that right now.
    And I hope that we will continue to work in conjunction 
with our European partners.
    Again, I think one of the bills that has been referenced--
actually both of them. I have heard from many of the sponsors--
is not really yet ready for prime time. It has a number of 
components that would, as you mentioned, blow back on our 
European allies. And I hope that as a body we will continue to 
work in a thoughtful way to put forth policies that are 
consistent with the way we have all been working together.
    I can tell you again if I had any sense that this 
administration was on the verge of lifting sanctions relative 
to Ukraine and Crimea, I would be the first person rushing to 
try to pass something to keep that from happening. But I think 
we have got an opportunity to work in a seamless fashion 
together with you to have the kind of outcomes that we wish.
    With that, Senator Cardin.
    Senator Cardin. Thank you, Mr. Chairman.
    Following up on the chairman's point, the High 
Representative pointed out to me that there are certain 
sanctions that Europe has imposed on Russia that are stronger 
than sanctions that the United States has imposed on Russia and 
that there may be some interest for us to try to pattern some 
of our sanctions on what Europe has already imposed on Russia.
    But I want to move to the parity here with working with 
Europe, which I agree with, as we work with Russia. We are not 
going to be effective. And what we learned with Iran is that we 
were able to be effective and bring Iran to the negotiating 
table because the United States and Europe worked together.
    So would you answer in a similar vein that what we decide 
to do in regards to Iran that it should be done in conjunction 
with our European allies?
    Ambassador O'Sullivan. Well, I think we did have close 
coordination----
    Senator Cardin. The chairman mentioned that we are 
considering additional legislation. You were pretty free to 
comment that before we do legislation in regards to Russia, we 
should work very closely with Europe, which I agree. Would you 
have the same response in regards to additional sanctions on 
Iran?
    Ambassador O'Sullivan. Well, as you know, Senator, we would 
need to look in more detail at those sanctions. Your sanctions 
or the proposed----
    Senator Cardin. Do you have a different view in regards to 
Iran than Russia about working with Europe?
    Ambassador O'Sullivan. No, sir. I think we should work 
together, but that means that we have to sit down and decide 
what is in our best interests and how we can best achieve the 
objectives.
    Senator Cardin. If I interpreted your answer to the 
chairman's question, it is that you would like to be engaged 
before we enact new legislation as regards Russia sanctions. Do 
you feel the same way about new sanctions enacted by Congress 
on Iran? It is a simple question.
    Ambassador O'Sullivan. I think, sir, of course, at the end 
of the day, each entity, the European Union and our member 
states on the one hand and the United States on the other, 
remain sovereign to take these decisions. And that, of course, 
is beyond question.
    I think the point is that we should attempt, as far as 
possible, to coordinate and to have a common position. That may 
be possible in some situations. It may not in others.
    I think the most important thing, sir, with respect, is 
that anything either of us do is done in full awareness of the 
possible consequences for the other side in this relationship.
    Senator Cardin. And that is true with Russia sanctions, as 
well as Iranian.
    Ambassador O'Sullivan. I think it works in both directions, 
sir.
    Senator Cardin. Thank you.
    The transatlantic partnership has been very valuable for 70 
years. I agree with that. And it led to the creation of NATO, 
which was an effort to protect the territorial integrity of the 
member states and to promote democratic ideals and human 
rights. And it has worked very successfully.
    In regard to non-NATO countries, with the fall of the 
Soviet Union, we found more and more previously communist 
countries joining NATO and joining the EU, becoming democratic 
states, and we have protected territorial integrity.
    For non-NATO states that are not part of NATO, we have 
found that there are territorial issues, starting with Moldova, 
then Georgia, and now Ukraine. So we have challenges. There is 
no question about it.
    Russia sanctions, as you pointed out, have been effective 
in both Europe and the United States imposing sanctions. We 
have been able to move forward.
    I would just urge--in your statement you say that we should 
not give sanction relief unless Russia complies with Minsk, and 
I fully agree with that statement. But I would also add 
Helsinki commitments to that list. Russia is a signatory of the 
1975 Helsinki Accords, and they have violated every one of the 
principal commitments in Helsinki by what they have done in 
Ukraine. And they should not be getting sanction relief unless 
they comply with the Helsinki Accords and remove itself from 
Crimea and its incursions into eastern Ukraine.
    I want to point to one part of the legislation that I filed 
that I would urge you to take a look at because I think it is 
vitally important that we move quickly with the European 
elections. And that is the European Democracy Initiative. We 
formed NATO to protect territorial integrity and promote our 
ideals. Each one of our states are taking preemptive actions 
because of Russia's incursions through the use of propaganda 
and attacks on our democratic institutions. Would we not be 
more effective if we coordinate that effort, share that 
information, and work with a common defense to Russia's 
propaganda and attacks on our democratic institutions?
    Ambassador O'Sullivan. Yes, sir. I think it would be very 
good to compare our concerns and how that can be reacted to. 
You know, this is something which is also being discussed 
within NATO. Just as we speak, the Hybrid Center of Excellence 
is being set up to increase European and NATO resilience to 
cyber attacks. So, yes, I think this is an issue of common 
concern on which we should certainly discuss and see if we can 
work together.
    Senator Cardin. Part of the legislation deals exactly with 
that point. And the last point I would make, Mr. Chairman, as 
we talk about taking action against Iran or Russia, they are 
very much related. Russia's activities in Syria and supporting 
Iran bolsters Iranian mischief and nefarious activities. So I 
think there is a direct relationship on the transatlantic 
partnership between how we deal with Russia and how we deal 
with Iran.
    The Chairman. If I could follow up, I assume that our 
countries are working together right now. It does not take 
legislation. I mean, surely our intelligence agencies and the 
intelligence agencies of the European Union already are working 
together to make each other aware of the nefarious activities 
Russia is engaged in in their countries. Is that correct?
    Ambassador O'Sullivan. Absolutely, yes.
    The Chairman. Senator Young.
    Senator Young. Mr. Ambassador, good to be with you.
    According to the United Nations Office for the Coordination 
of Humanitarian Affairs, 20 million people are at risk of 
starvation within the next 6 months in Nigeria, Somalia, South 
Sudan, and Yemen. Some 22 million children have been left 
hungry, sick, displaced, and out of school in those four 
countries. Nearly 1.4 million are at imminent risk of death 
this year from severe malnutrition. The United Nations is 
appealing for $5.6 billion in 2017 to address famines in these 
four countries.
    They and other stakeholders, NGOs and others around the 
world, indicate what is really needed, not just resources, 
although I would love it if you would speak to what measures 
the EU member countries intend to take in this effort, but they 
are asking for a diplomatic surge. Your member countries have 
significant leverage, as does the United States, to help in 
this area. What are you doing?
    Ambassador O'Sullivan. Well, Senator, thank you for the 
question.
    We are actually--the European Union and its member states 
combined--we are the largest provider of development assistance 
in the world. Some 58 percent of global development assistance 
goes to the world, and the same is true for humanitarian. So I 
think we are already extremely active. We are very sensitive to 
emerging new crises, and that is why we have additional funds 
available for emergency humanitarian aid. So, I mean, this we 
take very seriously.
    We know that the crisis in Syria mainly turned into a 
refugee crisis because there was not sufficient funds for the--
--
    Senator Young. So learning from those lessons in Syria, 
Yemen, South Sudan, Nigeria, and Somalia, what is the European 
Union doing?
    Ambassador O'Sullivan. Well, the first instance is, of 
course, to try to--if there is an immediate humanitarian 
problem, people are starving----
    Senator Young. There is.
    Ambassador O'Sullivan. --is to move food and to work with 
the humanitarian agencies, which is who we work with, to 
deliver the necessary food and resources, of course.
    Senator Young. How much are you delivering?
    Ambassador O'Sullivan. Sir, I cannot give you a precise 
number this morning. I would be happy to give it to you----
    Senator Young. I think it is in the millions.
    With respect to a diplomatic surge, what is being done by 
the EU member countries on that front?
    Ambassador O'Sullivan. Well, as always in these situations, 
as you rightly point out, behind the immediate crisis of 
humanitarian, there is frequently a problem of governance, 
management of the economy, and so forth. We work very closely 
with all the countries that you have mentioned to try to help 
them address those issues and get to the root cause, which then 
provokes famine or an immediate crisis. So we operate on both 
levels trying to deal with the immediate crisis, the 
humanitarian relief, and at the same time trying to see if we 
can help these countries through technical assistance, but also 
through more structured investment.
    Senator Young. Yes, sir. Thank you.
    We were told roughly, I think, a week ago, a week and a 
half ago, that within the next 2 weeks, we would start to see 
the leading edge of these 20 million people dying. That is 3 
times the population of my home State of Indiana. So I would 
certainly welcome the opportunity for the United States, which 
I believe needs to act far more boldly on this front, to work 
with our partners at the European Union to also act far more 
boldly on this front and try and provide some measure of relief 
to these individuals who will suffer.
    If I could turn to the importance of our trading 
relationship. I am a firm believer in the need to open up our 
respective markets to one another. We certainly mutually 
benefit from it. 80 percent of U.S. foreign direct investment 
comes from Europe. Our economic relationship supports 15 
million jobs on both sides of the Atlantic. Hoosiers. Almost 26 
percent of our exports go to Europe. So thank you very much. 
And Germany is the third largest export destination after 
Canada and Mexico for our exports.
    In your original prepared testimony, you indicated that our 
economic and trade relationship is very balanced. We could talk 
about the trade deficit. I am not as concerned as some are 
about that, although there are things we need to do 
domestically working with the EU to address that. But I see 
great imbalance with respect to a particular sector, and that 
is medical. Pharmaceuticals. You have got a ceiling on price in 
so many of your member countries. Diagnostics, other medical 
services. What can the EU do to help address the subsidy that 
the American people pay to the wealthy countries of the 
European Union for pharmaceuticals, diagnostics, and others in 
terms of research and development?
    Ambassador O'Sullivan. Well, Senator, at the end of the 
day, these are commercial transactions where products are 
manufactured, where they are sold. It is true that within 
Europe most of our member states in the health care systems do 
try to limit the excessive costs of pharmaceuticals and to 
manage that in the best way as possible, but it always done in 
discussion with the companies. So I am not sure there is 
anything--in terms of how the trade flows, this is ultimately 
down to the commercial decisions of companies and of the health 
care systems----
    Senator Young. Private companies working with your member 
governments on agreements. At the consumer level, it is 
American consumers that are bearing a disproportionate burden 
of the costs of these things that your member countries benefit 
from. And so I see a disparity there, and it is of concern to 
many Americans. And I just wanted to very directly communicate 
that to you, and perhaps we could work constructively on this 
matter moving forward.
    So thank you.
    The Chairman. Thank you, sir.
    Senator Menendez.
    Senator Menendez. Thank you.
    Thank you, Ambassador, for being with us today. The 
transatlantic partnership is incredibly important to both the 
European Union and the United States, and we appreciate you 
being here.
    Let me ask you. I read your principles that you had in your 
presentation. I assume that one of the principles for Europe 
still is trying to preserve the post-World War II international 
order. Is that a fair statement?
    Ambassador O'Sullivan. Yes, sir.
    Senator Menendez. And in pursuit of trying to preserve the 
World War II international order, how does the European Union 
approach dealing with countries that violate the international 
order in terms of trying to find a way to bring them back? Let 
us say Russia, for example.
    Ambassador O'Sullivan. Well, I think what is clear from the 
five principles that I mentioned is that we believe that when 
there is a flagrant violation of those principles, that should 
be sanctioned. That is what we have done in the case of Russia, 
both in relation to the illegal annexation of Crimea, which we 
do not recognize, and the continued interference in the eastern 
provinces. And that is why we have put in place sanctions 
related to behavior in both of those situations, which will not 
be removed until such time as there is full compliance with the 
Minsk agreement with regard to the situation in eastern 
Ukraine.
    So our policy is always one of reacting where there is a 
flagrant breach and trying to put in place appropriate 
responses and at the same time continuing to engage with 
countries to try to persuade them of the benefits of aligning 
themselves with solid international norms to which we have all 
subscribed.
    Senator Menendez. Fair enough.
    So while we have cooperated and tried to be in tandem, we 
have not always started off--the United States and the European 
Union--in tandem. As a matter of fact, in some cases the EU has 
led, and as was referenced before, the EU has some stronger 
sanctions than the United States against Russia. That did not 
necessarily bring us in tandem. And at the same time, the 
United States, particularly as it related to Iran, began to 
lead the way in which we are very pleased that the European 
Union joined in that effort, and there is solidarity on it. But 
it is fair to say that we do not always start off in tandem at 
the very beginning. Is that not a fair statement?
    Ambassador O'Sullivan. I think that can sometimes be the 
case, Senator, yes.
    Senator Menendez. Well, actually it is the case as it 
relates to Russia. You are far ahead of us in some very 
significant ways on Russia than the United States is on some of 
the more far-reaching sanctions that we have yet to employ.
    Ambassador O'Sullivan. We have a broad alignment of our 
sanctions. There are nuances between us. I think what we have 
always tried to make sure is that the differences do not cause 
problems for the other party so that there is nothing that we 
do within our own sanctions regime that would cause difficulty 
for----
    Senator Menendez. Well, sanctions in and of themselves 
always cause some consequence, not just to the intended party 
we are trying to get to observe the international order, but to 
those who levy them because there is a degree of sacrifice. Is 
that not a fair statement?
    Ambassador O'Sullivan. Absolutely.
    Senator Menendez. Now, has Iran violated the international 
order? I am not talking about the JCPOA. I am talking about its 
intercontinental ballistic missile testing, its pursuit of 
terrorism, actively its destabilization of the region, human 
rights violations. Would you not categorize all or any one of 
those as a violation of the international order?
    Ambassador O'Sullivan. I think that they are extremely 
problematic. As you know, we have sanctions in place linked to 
those matters, which are outside of the scope of what was 
agreed in the context of the JCPOA. So we have already some 
sanctions----
    Senator Menendez. So the EU does not necessarily believe 
that the violation of international order by Iran in other 
areas is ultimately to be overlooked as it relates to the 
agreement we made with Iran on its nuclear accord?
    Ambassador O'Sullivan. I think, sir, they are two separate 
things. The nuclear accord is a self-contained agreement 
dealing with that issue and the sanctions which were linked to 
that. We have always said--and I think High Representative 
Mogherini repeated this when she was here--that of course, the 
other issues, which have not gone away with Iran which you 
mentioned, the ballistic missiles, the human rights, support 
for terrorism, and so forth--they continue to be a subject of 
disagreement with Iran.
    Senator Menendez. Now, finally, how do you assess the 
staying power of sanctions as it relates to Russia in the EU? 
We see Russia doing a series of things to try to pick apart 
countries, and since the EU works through unanimity, that is 
always a challenge. How do you assess the staying power of the 
sanctions regime for so long as Russia does not change course 
and change the actions that caused the sanctions to be 
implemented in the first place?
    Ambassador O'Sullivan. Senator, I think we have been very 
clear. The decision going back to 2015 said very clearly that 
the sanctions are linked to the implementation of the Minsk 
agreement and should be maintained until such time as that 
agreement is fully implemented. The sanctions relating to 
Crimea are a separate discussion, and they, of course, are 
linked to the illegal annexation of that part of Ukraine which 
we do not recognize. So I think we are very firm in maintaining 
those sanctions as long as the original reason for their 
imposition remains.
    Senator Menendez. Thank you.
    The Chairman. Thank you.
    Senator Barrasso.
    Senator Barrasso. Thank you, Mr. Chairman.
    I really appreciated the opportunity to meet recently with 
the European Commission Vice President for Energy Union when he 
was in Washington to discuss energy-related issues. The 
European Commission has continually reiterated the need to find 
energy suppliers other than Russia being a high priority.
    And I wanted to follow up a little bit on what Senator 
Menendez was talking about because Russia has demonstrated over 
and over again its willingness to use energy resources as a 
weapon. Putin has used Russia's energy resources to extort, to 
threaten, to coerce our allies and our partners.
    So are you concerned about the European Union's over-
reliance on Russia for energy resources?
    Ambassador O'Sullivan. Well, thank you for the question, 
Senator.
    Indeed, this commission under Jean-Claude Juncker has a 
very ambitious project called European Energy Union, which is 
to create a fully integrated energy grid across all 28--in the 
future 27--member states precisely designed to reduce the 
reliance of any member state on any one source, the idea being 
that all member states should have at least three sources of 
supply, and they cannot be hostage to a single supplier. And 
that is a very important project which involves infrastructure 
development, the building of new LNG terminals, the building of 
inter-connectors between the Iberian Peninsula and France, and 
finding ways in which our member states can progressively 
diversify their sources of energy supply over time.
    Senator Barrasso. Then could you please share with us your 
thoughts on how the United States can help the European Union 
meet its energy demands and diversify away from countries that 
use energy resources as a weapon, specifically Russia?
    Ambassador O'Sullivan. I think one of the ways in which we 
would be grateful for your support would be to liberalize 
exports of LNG gas supplies to Europe or at least to put them 
on the world market. They may not automatically go to Europe 
but they would have the effect of making that a more liquid and 
a more vibrant market, which would be to the benefit of our 
member states who have invested in LNG terminals both in 
Lithuania and Croatia.
    Senator Barrasso. Thank you. No, I appreciate that very 
much. Clearly in Wyoming, we have a significant abundance of 
natural gas that could be used for exactly that purpose.
    I did want to talk with you a little bit about the Nord 
Stream 2 pipeline. Over the last several years, I have seen 
Russia's continued efforts to undermine peace and security in 
Europe, including through its use of energy, as we have talked 
about, and using it as a point of political leverage. The 
United States has been working closely with our partners in 
Europe to promote energy security through diversification, as 
you mentioned, including all sources of energy.
    But in July of 2016, I joined a bipartisan group of 
Senators--some are here on the panel on both sides of the aisle 
today, including Senator Shaheen and Murphy and Rubio and Risch 
and Johnson, members of the committee--in sending a letter to 
the President of the European Commission. The letter expressed 
concerns about what we saw as the devastating impacts of Nord 
Stream 2 on Ukraine and on European energy security. Nord 
Stream 2, as you know, would run from Russia under the Baltic 
Sea, directly to Germany. This pipeline would follow the path 
of the original Nord Stream pathway and would significantly 
boost Russia's gas exports to Germany. Several European 
countries have raised concerns that Nord Stream 2 would 
undermine sanctions on Russia and increase Russia's political 
leverage over eastern Europe. In addition, it is estimated that 
this pipeline would cost Ukraine about $2 billion annually in 
natural gas transit fees.
    So do you believe that Nord Stream 2, this pipeline, would 
be a step backwards in the diversification of Europe's energy 
resources in terms of suppliers, in terms of routes by making 
Europe less or more reliant on Russian gas?
    Ambassador O'Sullivan. Well, Senator, as I think you 
recall, when the Vice President met with you, the view of the 
European Commission about Nord Stream 2 is that it is not 
compatible or part of the project of energy union and 
diversification. The European Commission is also not convinced 
that it is actually needed.
    But, of course, at the end of the day, it is a commercial 
project, and if parties decide to build it, the important thing 
then will be that it fully conforms with European Union 
legislation on energy liberalization, what we call the third 
energy package, both the bit that is onshore. There would also 
have to be some discussion about how you would manage the 
offshore part. But the overall position I think of the European 
Commission on this matter is clear, but it remains, at the end 
of the day, a project to be undertaken by private commercial 
actors.
    Senator Barrasso. Could you address some of the things I 
have heard in traveling--a number of countries involved where 
they mentioned investments, contributions by Putin, by Russia 
to environmental extremist groups around the Europe to prevent 
additional exploration for Europe in an effort to continue to 
keep Europe more connected, the European Union more connected 
to Russian sources of energy?
    Ambassador O'Sullivan. I will be very honest with you, 
Senator. I am not informed about that. So I would not like to 
comment.
    Senator Barrasso. Thank you.
    Thank you, Mr. Chairman.
    The Chairman. Thank you, sir.
    Senator Shaheen.
    Senator Shaheen. Thank you, Mr. Chairman.
    And thank you, Mr. Ambassador, for being here today and for 
your kind words on our resolution on the Treaty of Rome. I 
certainly share--and I think all of us do--the importance of 
the transatlantic relationship and the contribution that it has 
made to the 70 years of stability that most of our countries 
have enjoyed since World War II and to the prosperity that so 
many of our countries have enjoyed.
    As we look at Russia's activities in Europe, one of the 
things that we have seen is that as they have looked at 
countries that were formerly within the sphere of influence of 
the Soviet Union and Russia, as those countries have tried to 
move towards the West, that has precipitated some of Russia's 
actions. We saw that in Ukraine. We saw it in Montenegro and in 
Moldova, a number of countries that really want to move closer 
to the West and be part of our alliances.
    As we look at countries like Albania and Serbia and 
Macedonia, Bosnia-Herzegovina and the interest that they have 
in joining the EU, what can we do? I appreciate that they need 
to reform many of their institutions and address issues like 
corruption in those countries. But as we think about the 
counterbalance that that provides to Russian activities, how 
can the EU continue to encourage those aspirant nations to 
continue to make the tough political decisions that are 
necessary to join the union?
    Ambassador O'Sullivan. Well, thank you, Senator.
    Indeed, the western Balkans is an area, which I mentioned 
in my introductory remarks, of great concern, and I think the 
High Representative, when she was here, raised with a number of 
you her concerns but also her enormous activity in this area. 
She has visited the region recently. And we are very committed. 
The western Balkans has a clear perspective of membership of 
the European Union. Indeed, a number of the countries you 
referred to are actually fully candidates and, therefore, on 
the way to becoming members.
    But as you say, it is a tough process. And it is important 
that they make the necessary changes because to be very frank, 
if they were to enter without doing that, it would go badly and 
it would ultimately perhaps be counterproductive. So this is 
very important that we help these countries to make the 
necessary changes, including in governance, anticorruption, and 
rule of law, and so forth.
    We work very well with the United States, I must say. We 
work very well with the local U.S. ambassadors in all of those 
countries where I think we are absolutely on the same page in 
terms of how we go forward.
    So this is for us a very high priority. We know that the 
future stabilization of the region and to avoid any return to 
the kind of conflicts we have seen in the past in that region--
future membership of the European Union is a very important 
element in making that happen, and we are very committed to 
that.
    Senator Shaheen. And I certainly appreciate the challenges 
that are presented. I do think thinking of ways that we can try 
and accelerate some of those efforts will be important as 
Russia tries to do everything possible to separate those 
countries from their Western aspirations.
    You talked a little bit about some of the efforts that are 
ongoing in the EU to respond to Russia's disinformation 
campaign. How can we better coordinate our efforts as we look 
at how to respond? Because I think that as we look at Russia's 
interference in our elections, that one of the most frightening 
things that we have learned is the propaganda efforts that they 
have underway and the efforts to impact our social media and 
really create confusion so that people do not know what the 
truth is.
    Ambassador O'Sullivan. Well, as the chairman indicated 
earlier, I think we are working and our intelligence services 
and our information services are coordinating. But that is not 
to say that we could not do better and that we could not do 
more. We are working very closely with NATO on this issue. It 
is a complex issue, to be frank, Senator.
    Senator Shaheen. It is.
    Ambassador O'Sullivan. There is perhaps no single simple 
answer, but we would certainly be very open to intensifying our 
cooperation.
    Senator Shaheen. And I do not mean to interrupt, but I 
think this goes beyond just intelligence efforts and efforts on 
the part of our militaries. It seems to me that this is an 
issue about making our publics aware, and I know that in 
countries where Russia has done this meddling--I was in Poland 
in February, and they were very aware of these efforts and I 
know other countries are. But there are a number that are not 
and that do not differentiate between what is Russian 
propaganda and what they see and think is news and the facts. 
So I am really talking about how can we better inform our 
publics. Is there anything in that arena that you think we can 
initiate?
    Ambassador O'Sullivan. Well, we have already, under the 
leadership of High Representative Mogherini, set up an East 
StratCom Task Force with 10 Russian language communications 
specialists within the European External Action Service to 
ensure effective communication and promotion of EU policies, to 
strengthen the media environment, and to improve our capacity 
to forecast and address issues of disinformation. We have an 
extensive network of people around the European Union who feed 
us the information, and we do a weekly report of this kind of 
disinformation. So that is one area in which we are active. We, 
I think, could certainly imagine close cooperation with allies 
and partners in the same effort.
    Senator Shaheen. Thank you very much.
    The Chairman. Just to follow up before going to Senator 
Gardner, I think in the United States there is probably 100 
percent awareness by citizens of Russia's involvement in our 
elections.
    Senator Shaheen. Are you kidding me?
    The Chairman. Maybe 110 percent.
    [Laughter.]
    The Chairman. I think people are very aware that there are 
concerns about Russia and their involvements here. I think that 
is a general statement that is true.
    In France, just out of curiosity, with the upcoming 
election, just to follow on Senator Shaheen's comments, what is 
the awareness there of Russia's potential--I will say beyond 
potential--their involvement in the elections there would you 
guess?
    Ambassador O'Sullivan. Sir, I think this is a subject which 
is openly debated in the media across Europe. How much of that 
sinks into the consciousness of the individual voters I would 
not like to say, but it is a subject of regular debate on TV 
programs and newspapers and social media. So I think there is 
an awareness that this is a serious issue. Of course, people 
have different views about it, and in the context of national 
elections, it can also become part of the political debate, 
which can complicate the matter. But I think there is generally 
a high level of awareness.
    The Chairman. Senator Gardner.
    Senator Gardner. Thank you, Mr. Chairman.
    Ambassador, thank you for your time this morning testifying 
before the committee today.
    I want to follow up a little bit on what Chairman Corker 
just mentioned. France, Germany, other nations--where do you 
see Russia predominantly aiming their focus on news 
interference, disruption within the European Union?
    Ambassador O'Sullivan. Well, I think that we are aware that 
there is a big effort underway to spread disinformation, to 
confuse news stories. But I have to say I think we must also 
have fairly good confidence in the robustness of our democratic 
systems. We have just had the elections in the Netherlands. The 
elections are ongoing in France and in Germany in September. Of 
course, a moment of election is a moment of heightened 
political activity, and you see an increase in this kind of 
disinformation and other spreading of rumors. So I think there 
is awareness of that.
    I think member states who are responsible ultimately for 
this have taken some steps to avoid any possible interference 
in the good conduct of the elections. In the Netherlands, they 
went back to manual counting to avoid the risk. I think in 
France, for the presidential elections, some possibilities for 
people living overseas to vote online have been changed to more 
secure means just to try to make the system as secure and 
robust as possible.
    So I think any moment of election is a moment of increased 
discussion and tension in any national situation, but I think 
our member states are well aware of this and addressing it.
    Senator Gardner. Outside of the elections in Poland, 
Hungary, other nations, have you see Russian involvement in 
other actions taking place by those governments in Poland, 
Hungary, or----
    Ambassador O'Sullivan. I have no personal knowledge, sir, 
that I could share with you this morning.
    Senator Gardner. Thank you.
    There was a report in the past 24 hours about Lithuanian 
intelligence sources stating that Russia could attack Eastern 
Europe with as little as 24 hours' notice. They talked about 
the NATO decision speed, the decision speed with which NATO 
would respond, NATO's reaction time. How does the European 
Union react to these types of reports from Lithuania?
    Ambassador O'Sullivan. Well, I think you will have 
discerned yourself, sir, it is primarily a NATO question, it is 
a military question for which the European Union is not 
directly responsible. We work, of course, very closely with 
NATO. Twenty-two of our member states are members of NATO. So 
there is a large coincidence of view. But when it comes to 
matters military, that is entirely within the remit of the 
alliance and not strictly speaking within the European Union.
    Senator Gardner. I mean, help me out. Do you talk to NATO 
about this type of report?
    Ambassador O'Sullivan. We have very good cooperation with 
NATO, and we share a lot of information. So, yes, I am sure we 
do discuss these things. But the state of military 
preparedness, if you like, is a responsibility of the NATO 
alliance.
    Senator Gardner. I understand that. I understand that. But 
I am just curious about what--in conversations with General 
Breedlove last year in NATO, talk about the intelligence 
community within the European theater as it relates to Russia--
what do you see from member nations, European Union member 
nations, about intelligence efforts within the European Union 
to counter Russian aggression?
    Ambassador O'Sullivan. Well, I think there is very good 
cooperation between our intelligence services. This is, of 
course, at the end of the day, a matter of member state 
national responsibility, not something which is decided at the 
level of the European Union, but there is very good cooperation 
and sharing of information between our national intelligence 
services dealing with all of these issues.
    Senator Gardner. Has the European Union sanctioned any 
Russian individuals or entities regarding cyber activity or 
human rights violations?
    Ambassador O'Sullivan. Can I get back to you on that? Off 
the top of my head, I would not be sure that I could give you 
an accurate answer. So let me come back to you with a precise 
answer on that, sir.
    Senator Gardner. Could you talk a little bit about Russia's 
involvement in perhaps the migration crisis across Europe?
    Ambassador O'Sullivan. Well, I am not sure that I can add 
very much. I mean, the migration crisis in itself, of course, 
has been a major challenge for the European Union. I think we 
have got a grip on it in recent years and are managing it now 
more effectively than was the case at the immediate moment of 
the surge. I do not think that we are aware of a particular 
Russian role in that beyond, of course, the whole situation in 
Syria, which is the root cause of much of the crisis.
    Senator Gardner. Thanks, Mr. Chairman.
    The Chairman. Thank you.
    Senator Coons.
    Senator Coons. Thank you, Mr. Chairman and Ranking Member. 
Thank you, Chairman Corker, Ranking Member Cardin for your 
diligent and determined and bipartisan leadership on this 
critical issue.
    And I would like to thank all of our witnesses, both 
Ambassador O'Sullivan who is before us and Ambassador Volker 
and Baer who will soon join us, for your willingness to share 
your expertise with our committee.
    I have seen firsthand, as have many members of this 
committee, the effects of Russian disinformation campaigns, 
cyber attacks, and attempts to influence elections. And that is 
why I think it is critical that we work together to mark up 
legislation that will strengthen our hand as we seek to 
indicate to our European partners a bipartisan determination to 
take firm action in the face of Russian aggression.
    Last summer, I had the opportunity to lead a bipartisan 
delegation. We visited the Czech Republic, Ukraine, and 
Estonia. And I was deeply concerned by the anti-EU sentiment 
that I witnessed during this trip and the rise of anti-
establishment ideologies and anti-EU parties, similar to some 
of the anti-establishment and populist political ideology we 
have seen here.
    How could this trend of more and more sort of anti-
establishment, anti-EU political parties across the entire 
continent threaten our partnership with the EU? And what tools 
do our democracies possess to fight Russian disinformation 
campaigns that we could strengthen together?
    Ambassador O'Sullivan. Well, on the question of the 
disinformation campaign, I think I have already addressed that.
    On the more general question, Senator, of the trend towards 
anti-establishment or more nationalist looking parties or 
parties with more extreme views very critical of the European 
Union, forgive me, but at the end of the day, we are 
democracies and I think it is important that whatever 
sentiments are out there in the general population find their 
way into the political system and find an expression through 
the political system. Obviously, I would hope that many of 
these views would not become mainstream or would not become 
majority trends. And I think the challenge in many countries 
these days is for the establishment parties to reestablish 
relevance and an ability to address the concerns of citizens 
who perhaps turn to these other parties because they feel they 
are not getting the answers that they were looking for from the 
establishment. And I think that is a challenge on both sides of 
the Atlantic to find a way of doing that.
    But as I said before, I remain very confident in the 
robustness of our democratic systems on both sides of the 
Atlantic and the ability of our political systems to manage and 
contain these movements without it overthrowing the fundamental 
principles of democracy, human rights, and the rule of law.
    Senator Coons. Well, let me ask about a specific case in 
the upcoming French elections. Can you explain to me a scenario 
whereby Marine Le Pen secures the French presidency and then 
seeks to withdraw France from the EU? And tell me what sort of 
security and economic impacts that would have on the 
transatlantic relationship, whether it would be constructive in 
any way.
    Ambassador O'Sullivan. I fear, Senator, that is one of 
those fair questions but to which I could only give an 
indiscreet answer. So if you will forgive me, I am not going to 
speculate about what might be the result of the French election 
or what might be the consequences. I do not feel competent to 
comment on that here today.
    Senator Coons. You may well be competent, but it is 
probably wise for you not to be too pointed in that answer.
    And are you concerned some EU countries may move soon to 
lift or ease sanctions against Russia due to the ongoing 
political and perhaps economic pressure that is being applied 
on them to do so?
    Ambassador O'Sullivan. No, Senator. As I said earlier, we 
are very confident in the strong consensus that exists about 
the sanctions which are in place, why they are there, and the 
conditions under which they could eventually be removed which 
are clearly set down in our decision. So, no, I do not have 
that concern.
    Senator Coons. In the visit I just referenced to Estonia, 
we heard about the so-called Bronze Soldier cyber attack in 
2007. A World War II era statue of a Soviet soldier was moved 
just a short way from the capital to outside the capital in a 
military cemetery. And in response, Russian hackers launched a 
massive cyber attack against Estonian websites, and the former 
president called this a public-private partnership.
    What recommendations do you have for us about countering 
this style of interference? And are there lessons the U.S. 
could learn from the EU East StratCom Task Force and what work 
it has been doing?
    Ambassador O'Sullivan. Well, on your latter point, we would 
be happy to share further details of what we are doing to see 
if this is something that we could work further on.
    On the question of hacking and cyber warfare, I think we 
are working very closely both within NATO, and we also have 
between our member states a clear strategy to address hybrid 
and cyber strategies. This is obviously an issue of very big 
concern on both sides of the Atlantic, I think for all 
developed societies. The damage which could potentially be done 
is huge, and I think all our systems are working very closely 
to figure out how we can counter or, even better, prevent any 
kind of attacks of this kind, from whichever source, by the 
way.
    Senator Coons. Well, Mr. Ambassador, just thank you for 
sharing your experience about ongoing, widespread and, sadly, 
often effective Russian aggression against our democracies.
    Thank you, Mr. Chairman.
    The Chairman. Thank you.
    Senator Portman.
    Senator Portman. Thank you, Mr. Chairman.
    David, good to see you.
    So we have had a good discussion today about Russian 
disinformation and propaganda. And I often think when I hear 
our discussion that if we had only listened to our allies in 
Central Europe, Eastern Europe, we would be a little ahead of 
the game because they have been warning us for a long time 
about what is happening to them.
    I am looking at Disinformation Review this week, and here 
is the top of many stories that they are exposing. A Czech 
Republic disinformation outlet wrote that the Council of Europe 
is enforcing a rule that Czech children are stolen from their 
mothers in order to privilege the LGBT community and help the 
Islamization of the nation, thus playing into two very common 
anti-Western narratives in one, and obviously very false 
narratives you will tell us this morning. Correct?
    So this is happening constantly among your member states 
like the Czech Republic but also in Western Europe. We are now 
seeing this happening in France and in Germany with the 
elections. We certainly are experiencing it here. I think the 
chairman is right. People are aware that there was meddling. I 
think they are not aware of the extent to which it happens all 
the time and not just here in this country, but in other 
democracies, many of which are fledgling democracies. And it is 
this combination of cyber attacks, hacking, troll farms on 
social media. What we just read here is an example of some of 
the disinformation. Think tanks that are useful to them, 
political organizations, state-sponsored media, including here 
in this country.
    We have recently authored legislation here, which passed at 
the end of last year. And Senator Murphy is here this morning. 
We authored this to try to get the United States more 
aggressive in responding by coordinating better and having more 
effective messaging. It is called the Countering Foreign 
Propaganda and Disinformation Act. It would set up a global 
engagement center at the State Department.
    And my question to you today is to dig a little deeper into 
what you have already talked about. You mentioned the EU 
External Action Services StratCom Task Force, and it seems to 
me they are doing very important work. The question is very 
specifically how could we coordinate better with your own new 
organization, StratCom, to better provide information back and 
forth about disinformation and how to counter it. And I hope 
you are taking that from this hearing, that you will be 
reporting back and saying we would like to encourage that and 
increase that.
    Our State Department effort is just standing up.
    My first question I guess is what else are you providing to 
your member states. I know you also have under Europol, as 
Chairman Corker referenced, the EU Intelligence and Situation 
Center, other data collection efforts which offer real 
opportunity for sharing information and mutual support. Is that 
also going on between you and your member states?
    Ambassador O'Sullivan. Yes, Senator. And we also have the 
Counter-Cyber Center in Europol as well. So there are a wide 
range of efforts being undertaken to combat these different 
threats that you mentioned which are, as you rightly say, 
something of enormous concern on both sides of the Atlantic.
    Senator Portman. Can StratCom actually tap into those 
intelligence resources?
    Ambassador O'Sullivan. I would not like to say for certain 
they can in that way. We certainly work very closely across all 
the institutions in Europol and the External Action Service and 
the commission. So I think there is a very strong degree of 
coordination at the European level.
    Senator Portman. My sense is that here in this country--and 
my sense is this is true in the EU as well--that there is not 
the kind of coordination that would be useful always with 
regard to countering the disinformation. And so I know 
sometimes there are legal barriers to it. Sometimes there are 
different levels of classification that make it difficult. But 
I think this is, again, something that is in our interest and 
your interest both to coordinate across the Atlantic but also 
to have better coordination in our intelligence services and 
the efforts we are making to try to counter.
    You have got 22 member states in NATO, as you said earlier, 
and they have come up with this new approach to combat what 
they call hybrid threats. So kinetic and nonkinetic, and 
certainly disinformation is a big part of that. This joint 
framework on countering hybrid threats has now been 
established.
    Can you talk a little about that? Again, can we collaborate 
better? Obviously, the EU and the United States are the major 
players here. And is there information sharing between NATO and 
the specific organizations like StratCom?
    Ambassador O'Sullivan. Well, firstly, of course, the Hybrid 
Center of Excellence that you mentioned is being set up in 
Finland as a NATO exercise. And yes, there is a very good 
exchange of information and best practice across the different 
layers. This is not to say that one cannot always do better. As 
I think Senator Shaheen pointed out, it is not just a question 
of--the disinformation is not just about intelligence, it is 
also about dealing with things which are not secret but which 
are actually sort of very public and how you deal with that and 
how you respond to it, how you make it better known that this 
is misinformation and disinformation. But we would be certainly 
happy to discuss further how we could work even more closely 
together on those issues.
    Senator Portman. Well, thank you.
    I think the example I used at the outset is one along those 
lines. It is not a matter of intelligence sharing on that. It 
is a matter of ensuring people know that these are false 
narratives and communicating clearly. And we certainly have a 
shared interest in that. So we thank you for your personal 
commitment to that cooperation between the United States and 
the EU and look forward to working with you more closely on 
this.
    Ambassador O'Sullivan. Thank you, sir.
    The Chairman. Thank you.
    Senator Murphy.
    Senator Murphy. Thank you very much, Mr. Chairman.
    Good to see you, Ambassador.
    Thank you, Mr. Chairman, for holding this hearing and for 
maintaining this bipartisan commitment to the transatlantic 
relationship.
    Thank you, in your opening remarks, Ambassador, for talking 
about the 70th anniversary of the Marshall Plan. It is 
important that we remember this country's commitment to 
building open economies and robust democracies in and around 
Europe. That is a time when we were spending about 2 percent of 
our country's GDP on economic and democracy advancement 
overseas. Today that number is 0.1 percent and, if this 
administration has their way, heading even further in the wrong 
direction.
    Second, to the chairman's comment about whether this is a 
settled case or not regarding Russia's interference in the U.S. 
elections, there was a really interesting CBS News poll from 
just about a week ago suggesting it is not a settled case, that 
only about 40 percent of Americans believe that Russia 
interfered in the U.S. elections to benefit President Trump, 
and that for about 60 percent of Americans, it is still an open 
question. And I do not think that is coincidental to the 
President's weekly tweeting that all this coverage about the 
Russian interference in our elections is fake news.
    I think my worry is that this sort of open assault by 
President Trump on the mainstream media in this country--it 
plays into Russia's objective. We talk about Russia's interest 
in trying to spread their specific narrative throughout its 
periphery. But in many ways, that is not their primary 
objective. Their primary objective is to really shatter 
objective truth, to just raise questions about everyone's 
narrative so that people in their sphere of influence just 
believe that everything is spin and that there is no truth any 
longer. And so I think we have to remember that what is 
happening here, this exceptional assault on the media coming 
from the chief executive of our country frankly plays very 
nicely into the strategy that Putin has employed throughout the 
region.
    Which gets me to this effort that Senator Portman and I 
have been engaged in to try to build some increased capacity to 
partner with yours, to try to grow objective, independent 
journalism. We have to remember that in the Balkans and Eastern 
Europe, this kind of independent journalism is really in its 
infant stages still compared to how long we have been at it in 
Western Europe and the United States. And I know that this is 
in part what the EU East StratCom Task Force is talking about 
trying to raise a fund that could potentially be partnered with 
the dollars that may come into the Global Engagement Center to 
directly assist independent media sources to grow their ability 
to tell an objective story.
    So I maybe want to ask you specifically about the work that 
the EU is engaged in to try to promote independent, objective 
journalism in places where it just does not have the roots that 
it does in other parts of the continent.
    Ambassador O'Sullivan. Well, I should emphasize the 
StratCom East Task Force is a fairly lean operation. In fact, 
they do not have an operational budget. They only have their 
own administrative budget. They are not in the business of 
giving money to other people for this activity.
    I think the point you make is a very valid one, and it is 
certainly something we do a lot through our development 
assistance programs outside of Europe. I think the feeling 
within Europe is that this would be very much a matter for our 
individual member states. I mean, it goes to journalism 
courses. It goes to the training of journalists and so forth.
    So I am not aware, but I certainly can take it back and 
just double check of the specific action by the European Union 
as such on the issue of journalism within Europe. But I can 
have it double checked to make sure I am not misinformed.
    Senator Murphy. Just to change subjects quickly. If we were 
here 2 years ago, we would be spending a lot of time talking 
about the EU-U.S. trade deal, and we have not spent a lot of 
time talking about that because we sort of feel like we are in 
a post-trade deal environment here. But the President has 
floated a bilateral trade deal with Britain which to many of us 
would seem to reward them for walking away from the European 
community.
    So can you just talk about your member states' continued 
desire to ultimately have a trade deal with the United States 
and how we should think about ordering any new trade agreements 
with Europe or with individual states? I would think our 
preference should be to do a European trade deal before we do 
any bilateral deals with countries that have withdrawn from the 
European Union.
    Ambassador O'Sullivan. Well, as you know, Senator, we were 
negotiating for 3 and a half years on a comprehensive free 
trade agreement between the United States and the European 
Union. And I want to emphasize that is a bilateral deal. It is 
not like TPP where you sit with 11 partners around the table. 
You have one negotiator on behalf of the entire European Union, 
the European Commission, and one U.S. negotiator.
    Those talks have now been suspended pending the review of 
trade policy by the incoming administration. There is not yet 
appointed a United States Trade Representative. So we are 
waiting patiently for the new administration to reflect on this 
issue and to engage with us on how we go forward. I think the 
fundamental reasons why we started the negotiation in the 
beginning, which have been highlighted by a number of you and 
in my introductory remarks about the importance of the 
transatlantic economic corridor, which is the single most 
economic corridor in the world by far. We are much more heavily 
invested in each other than either of us are anywhere else in 
the world. And, therefore, the logic of a future comprehensive 
trade deal remains pertinent in our view. But, of course, we 
understand that this administration is reviewing its trade 
policy, how it wants to proceed. We wait patiently for the 
necessary responsible people to be in place, and we would hope 
to take up that conversation.
    As for an agreement with the United Kingdom, when the 
United Kingdom leaves, it will be for them to decide how they 
wish to take forward their own trade policy. This will not 
happen for at least 2 years following the triggering of Article 
50, at which point it will be entirely a matter between the 
U.S. and the U.K. as to how they want to proceed.
    I would just point out that I think the U.K. economy is 2.5 
trillion euros. EU 2017 will be a 15 trillion economy. So in 
terms of the economic impact of the trade deal, those numbers 
give you some sense of the orders of magnitude.
    The Chairman. Thank you.
    All combined, 48 percent of the world's GDP, you know, not 
much in the way of labor differences, environmental 
differences--so at some point, hopefully, collectively all of 
it will be done.
    Senator Rubio.
    Senator Rubio. Thank you.
    Thank you so much for being here.
    I think it has been mentioned earlier before, and it is 
relevant to the question I am about to ask with regard to the 
European Union. But we are all now aware of these stark images 
emerging from an attack yesterday in Syria involving nerve 
agents by all accounts. It is sad. If that would have happened 
2, 3, 4, 5, 6, 7 years ago, we would all be outraged by it. It 
would be leading every newscast. Now it is accepted almost as a 
matter of course. It is truly unbelievable. We have reached a 
point in this world and in our political discourse in this 
country where people are being gassed with nerve agents from 
airstrikes, and it is just like another day. The outrage level 
has reached a point of resistance now where it is just truly 
startling.
    I know the Secretary of State a couple days ago--our 
Secretary of State commented that the people of Syria would 
have a role to play in Assad's future. Well, it depends on 
which ones are still alive if this continues.
    And it would have been impossible had it not been for 
Russia's cooperation and support of Assad. And I think our 
allies in Europe understand this.
    And I ask you this because this attack happened basically 
on the same day that the European Union was hosting a 
conference about who is going to pay for rebuilding Syria. And 
the message seems to be I am going--``I'' meaning Assad, is 
going to keep gassing and killing people and doing whatever he 
wants with the help of the Russians, the Iranians, Hezbollah, 
and others, and then you, the world, including the European 
Union, are going to pay for it.
    What is the sentiment of the European Union in light of the 
fact that as this gathering is occurring, I believe in 
Brussels, on the eve of it or on the same day of this 
gathering, we receive news about this horrifying atrocity 
committed by the Assad regime assisted by Vladimir Putin? What 
has been the sentiment in light of the timing between this 
attack happening on the same day or on the eve of this 
important gathering?
    Ambassador O'Sullivan. Well, Senator, I can only share your 
outrage at the horror of the attack and, if it is confirmed, 
the use of chemical weapons, which we are completely opposed 
to. I think Syria is one of the greatest humanitarian crises of 
our lifetime, of our generation. The neighboring countries have 
borne the brunt. We have also seen the consequences.
    The European Union I think has worked tirelessly to try to 
find a ceasefire and a political transition, which would enable 
the people of Syria to determine their own future. This is the 
sense in which we have worked. We have worked closely with the 
United States. It has eluded us for the moment, but we will 
continue to work in that direction.
    The conference that you mentioned at the initiative of High 
Representative Mogherini is, indeed, designed to get us to 
start thinking about the day after. Assuming that we can get a 
ceasefire, assuming that we can get a viable process of 
political transition and allowing the people of Syria to 
determine the fate of their own country, how do we support that 
process and encourage them? Because the reconstruction which 
will be needed in Syria is massive, Senator, as you can imagine 
the destruction which has been done. And it will require a 
massive effort of the international community.
    So it is not that we are abandoning our issue of wanting to 
see a ceasefire and wanting to see a political process whereby 
we can figure out how Syria determines its own future. But if 
we do not start now thinking about what the reconstruction and 
how that could be funded and how it could be done, that will 
also be an incentive to the warring parties perhaps to also 
realize the benefit of actually stopping the fighting and 
trying to find a way forward. So it is in that spirit that we 
are convening this conference. It is not in any sense to be 
complacent about the ongoing horror of what is happening in 
Syria.
    Senator Rubio. And by no means did I mean to imply that 
they are being complacent. I think it is an important 
conference as well. I would just say as a matter of a personal 
view--and I hope it is one that is widely shared--it is hard to 
imagine the international community getting together and 
helping rebuild a Syria in which a war criminal, a monster like 
Bashar al-Assad--it is not the first time he has done this sort 
of thing--would somehow be running that country. It would be 
difficult for the people of Syria. Imagine for a moment if you 
were one of these people who just had your child killed by a 
nerve agent dropped by the regime ever accepting that this 
individual is going to be governing you.
    So I know you cannot comment on that, but that is my view, 
and I wanted to share it.
    And I wanted to share one more thing, and this I think goes 
right to the alliance between the European Union and the United 
States. It is a quote. The Washington Post ran this about 48 
hours ago, and it really I think goes right to the heart of 
what is happening. This is from Jeane Kirkpatrick back in the 
1980s. She wrote, quote, to destroy a society, it is first 
necessary to de-legitimize its basic institutions so as to 
detach the identifications and affections of its citizens from 
the institutions and authorities of the society marked for 
destruction. An alliance among democracies is based on shared 
ideals. The process of de-legitimization is, therefore, an 
absolutely ideal instrument for undermining an alliance, as 
well as for undermining a government.
    Is that not in fact what we see occurring via Vladimir 
Putin? He is attempting to de-legitimize the institutions of 
democracy across our alliance for purposes of destroying that 
alliance.
    Ambassador O'Sullivan. Well, I think that we understand 
that perhaps President Putin sees real democracy as a threat to 
the situation in Russia. We, as you know, strongly support 
democratization and the institutions which go with it.
    I come back to the point I made earlier, Chairman and 
Senator. I continue to have great faith in the robustness of 
our democracies on both sides of the Atlantic. And I believe 
while there are forces at work, which would seek to de-
legitimize or to put into question the effectiveness of those 
institutions, I believe that in the end the commitment of our 
citizens to the democratic process, to the rule of law will 
carry the day. But we understand that there are very distinct 
threats coming in that direction.
    Senator Rubio. Just for the record, Mr. Chairman--I thank 
you for your testimony, for your support, for everything you 
have done with us here today.
    Just for the record, I do not want to be unfair. As far as 
I know, as of 11:40 a.m. Eastern time on Tuesday, I am not 
aware of either a State Department or a White House statement 
condemning what has occurred in Syria, and I hope that changes.
    The Chairman. Before I turn to Senator Markey, do you see 
any circumstance where the European Union would not wish to 
pursue war crimes against Assad?
    Ambassador O'Sullivan. I would not feel able to answer that 
question, Senator. I think the question of how the political 
transition takes place in Syria, what is the continued, if any, 
role of President Assad in that process as part of a transition 
or as part of an end game, and what the----
    The Chairman. I understand, but that to me is a different 
topic. The notion surely that speaking of just who we are, 
regardless of what may occur in a transition, do you see any 
situation where the European Union members would not wish to 
pursue war crimes against--that Assad committed and to have him 
punished and hopefully put away for that? Do you see any 
circumstance where that would occur?
    Ambassador O'Sullivan. I am not aware that that issue has 
been discussed and decided at the European level, and I would 
not wish at this point, Chairman, whatever my personal views 
might be on the matter, to say something which implies a 
commitment on the part of the European Union or its member 
states.
    I take the point. You know there has been much debate about 
how the political transition will go forward, and that is 
something which will have to be, I think, decided in particular 
by the Syrian people once we can get a process of transition. 
But I take the point.
    The Chairman. Senator Markey.
    Senator Markey. Thank you, Mr. Chairman.
    And thank you, Mr. Ambassador, for your great work for the 
whole planet.
    In response to Russia's campaign to influence the recent 
U.S. presidential elections, the Obama administration imposed 
sanctions on a number of individuals and entities, including 
Russia's military intelligence service, the GRU, which ran the 
operation.
    One of the individuals designated under sanctions was 
Evgeniy Bogachev, a cyber crime kingpin, whose criminal 
organization stole upwards of $100 million before it was taken 
down by the FBI and a global consortium of law enforcement 
agencies.
    In addition to theft, Bogachev also used his network of 
hundreds of thousands of hacked computers to search for 
sensitive intelligence relating to Georgia, Ukraine, and Syria. 
That suggests that he operated with impunity in Russia in 
exchange for working as an intelligence asset. It also raises 
troubling questions about Russian support or tacit acceptance 
of organized crime to support its intelligence gathering and 
cyber warfare objectives.
    Can you speak about the importance of the law enforcement 
cooperation that is necessary between the EU and the United 
States in order to make sure that we are properly policing 
these areas that are very, very shady and in fact help to 
enhance the cyber war capacity of Russia in this effort that 
they are engaging in versus the West?
    Ambassador O'Sullivan. Well, thank you for your question, 
Senator.
    I mean, I think a fairly consistent theme of this morning 
has been, indeed, the fact that we are working together closely 
on these issues, sharing information, comparing notes, and I 
hope that we will continue to do so because this is, as you 
say, a common threat where we need to maximize the sharing and 
pooling of our information about what is happening and how we 
can respond to it.
    Senator Markey. Is there a coordinated effort amongst the 
EU to ensure that there is a promotion of liberal democratic 
values in its member states, given what has already happened 
with regard to the Russians in their efforts not only in the 
United States, but in countries within the EU? Is there 
something that is coordinated that has had meetings amongst EU 
nations towards pushing back on Russia?
    Ambassador O'Sullivan. Well, as I said, I think an answer 
to Senator Shaheen, for example, in the western Balkans, this 
is an area where we are very insistent as part of the future 
membership process of those countries, that indeed, they have 
to subscribe to those very principles of democracy, rule of 
law, human rights. Those principles are enshrined in our basic 
treaties, the Lisbon Treaty and in the Charter on Fundamental 
Rights, and all our member states are committed to respecting 
and to taking forward those principles. So they are, if you 
like, at the core of the existence of the European Union.
    Senator Markey. Could you speak a little bit as well about 
this offensive/defensive nuclear weapons tension that has been 
rising between Russia and the West and the impact that that has 
upon accelerating this ever-increasing confrontation between 
Russia and the West?
    Ambassador O'Sullivan. Well, I am not sure, Senator, that I 
am qualified to answer that question. It is not something that 
I follow in great detail. I mean, clearly the discussions 
between the nuclear powers on how to avoid unnecessary 
confrontation or how to avoid the unknown facts of use or 
misuse, the issue of nonproliferation is, of course, something 
on which we work closely. So we are heavily engaged in all of 
these areas, but I do not feel able this morning to give you 
more details.
    Senator Markey. Okay, great.
    Thank you, Mr. Chairman.
    The Chairman. Senator Kaine.
    Senator Kaine. Thank you, Mr. Chair.
    And thank you, Ambassador O'Sullivan.
    I know many of these topics must have been covered as I was 
in other hearings and I apologize.
    But the title of this is important. The European Union is a 
partner against Russian aggression. Partnership implies a 
number of things. I think partnership implies a shared goal, a 
shared set of values, and the United States and the European 
Union do have a shared goal of trying to confine Russian 
aggression. That is a shared goal. Partnership also implies 
some reliability. You will help us and we will help you.
    What would it say to our EU allies who are engaged in this 
partnership with us if the United States fails to take 
seriously Russian aggression against the United States? What 
would it say to our allies about our willingness to help them 
deal with Russian aggression?
    Ambassador O'Sullivan. Well, I think, Senator, we have a 
shared objective, which is the preservation of our respective 
societies and countries and keeping our citizens safe. And we 
have many shared objectives between us in terms of the issues 
we have been discussing this morning.
    Your question, if I may say so, is designed to trap me, and 
the question of what constitutes aggression and how a country 
chooses to address that is very much for each of our instances 
to decide.
    Senator Kaine. Does the EU have a position whether an 
effort by Russia to destabilize a domestic election of an EU 
member would be considered aggression?
    Ambassador O'Sullivan. I think we are all agreed that 
external meddling in domestic elections is not to be approved, 
and I think that is a consistent position we all take. But it 
is, I think, at the end of the day, for each of our--in the 
case of the United States or for our member states in the 
European Union to make that determination as to whether that 
point has been established.
    Senator Kaine. Do EU nations hope that the United States 
would be a partner in countering Russian aggression in their 
own domestic politics or in their own sovereign affairs?
    Ambassador O'Sullivan. I think if any of our member states 
or if the European Union felt that they wanted assistance from 
the United States, they would feel able to ask it, and I am 
sure they would feel that they would receive it.
    Senator Kaine. They would hope that we would be 
cooperative.
    Ambassador O'Sullivan. I have every reason to believe that 
America would be. You always have been a great partner and ally 
to all our member states and to the European Union.
    Senator Kaine. If these nations see the United States or 
the administration, the current administration, being 
lackadaisical about Russian attacks, saying that they did not 
happen, saying that it is fake news, trying to demean the 
intelligence community that is suggesting there were such 
attacks, trying to slow down or stop an investigation into the 
attacks, would that not send a message, a real mixed message to 
European nations that, wow, if the United States is not even 
willing to take steps to protect itself against Russian 
aggression, what is the likelihood that they would be willing 
to take steps to protect us against Russian aggression?
    Ambassador O'Sullivan. Senator, I think you are trying to 
take me into domestic U.S. politics, and you will forgive me I 
feel that it is not my position to comment on your domestic 
debate.
    I can only reiterate what I have said from the beginning. 
We have a very strong partnership with the United States. We 
feel with this administration we have a good understanding on 
the issues that we have been discussing. Of course, there will 
always be a domestic political debate about the issues you 
raise, but that is really a matter for yourselves and not for 
anyone from outside to comment.
    Senator Kaine. Do you feel like what we do domestically 
about the Russian attack on our electoral system sends no 
message to European allies?
    Ambassador O'Sullivan. I think people view these issues as 
part of a domestic political debate in the United States, and 
as I say, these are issues ultimately for the United States 
political system to determine. And I certainly do not feel able 
to comment on how people would categorize that or categorize in 
terms of the language that you have used. I do not think that 
is necessarily language that would be used by other observers. 
It might be shared by some, but perhaps not by all.
    Senator Kaine. So you do not worry however we resolve this 
domestic issue, which is an issue of the attack of a foreign 
nation on our electoral system, the Russians that we are having 
this hearing about--you do not think European nations will draw 
any conclusions about what kind of a partner we would be with 
them against Russian aggression from our resolution of this 
issue.
    Ambassador O'Sullivan. I repeat, sir, I think this is 
essentially a domestic issue for the United States to resolve 
through your political system, and we remain convinced that the 
United States is a reliable partner and ally in this 
discussion.
    Senator Kaine. Thank you, Mr. Chair.
    The Chairman. I know you were probably at an Armed Services 
hearing. I did ask if he felt there was any sense of this 
administration doing something soft relative to Ukraine or 
Crimea, and you sense no change in status as far as our 
coordination with Europe and our strong position relative to 
Minsk, Crimea, Ukraine, and everything else. Is that correct, 
sir?
    Ambassador O'Sullivan. That is correct, Chairman.
    Senator Cardin. I know we are completing this panel. We 
have a second panel. I just want to clarify two points for the 
record.
    First, in response to Senator Rubio and the chairman's 
comment on Assad's conduct, I understand you cannot speak for 
every nation. But the civilized world must make it clear that 
when you gas people as part of a military operation, that is a 
war crime. And those who are responsible must be held 
accountable. And the lack of clarity on this only encourages 
more of this outrageous behavior which the civilized world 
cannot be silent about. And I understand your restrictions. But 
Assad must be held accountable for his war crimes.
    The second point I wanted just to clarify and that is you 
are correct about how we have to prepare against what Russia is 
doing on disinformation. And you mentioned specifically 
hardening our ways that we register and count votes, and that 
is something we have to do in today's world.
    But the other part of this is the misinformation, the use 
of social media, the fake news, the cyber attacks to get 
information. And that is much more complicated and much more 
difficult. And it is that information where I think we can do a 
better job because Russia is ahead of us. They do things we 
would not think about doing. And we have to do a better job.
    I appreciate it, Mr. Chairman. I wanted to clarify this 
point.
    The Chairman. I appreciate that. And I thought the exchange 
was actually very healthy.
    And I do hope that somehow before European countries would 
consider participating in rebuilding Syria, regardless of what 
political transition is worked out, that there would be first a 
step relative to assuring that Assad is punished for his war 
crimes. I hope there is some caveat there that takes place and 
not just an automatic rebuilding that takes place on his 
behalf. So I know it is on behalf of the Syrian people also, 
but I do hope that.
    Listen, you have been a great witness and you did a great 
job of making sure you did not speak for the rest of the 
European Union inappropriately. You have been a good sport and 
a great friend to the United States, and we appreciate you 
being here very much.
    There may be some additional questions. We will keep the 
record open until the close of business Thursday. I know you 
have other responsibilities, but to the extent you could answer 
those fairly promptly, we would appreciate it.
    Again, thank you so much for your willingness to be here. 
Thank you for our shared concern relative to Russia's nefarious 
activities in trying to break down the institutions that have 
made the European Union what it is and have made our country 
what it is.
    And with that, we will go to the second panel.
    Ambassador O'Sullivan. Thank you very much.
    The Chairman. Well, gentlemen, we thank you both for being 
here. I am going to move right into it. We have also a noon 
vote. So there is going to be some coming and going. We 
apologize. Sometimes that is a hazard of a second panel, but we 
thank you both for your expertise.
    We will now turn to the witnesses of our second panel. One 
is Mr. Kurt Volker, the Executive Director of the McCain 
Institute for International Leadership at Arizona State 
University, a friend to many of us. He previously served as the 
United States Permanent Representative to NATO, as well as 
Deputy Assistant Secretary of State for European and Eurasian 
Affairs. Thank you so much for being here, sir.
    Our third witness, second witness on this panel, is Mr. 
Daniel Baer, who served as U.S. Ambassador to the Organization 
for Security and Cooperation in Europe under President Obama. 
He has also served as Deputy Assistant Secretary of State for 
the Bureau of Democracy, Human Rights, and Labor. We thank you 
so much for being here, sir, and your previous service to our 
country. With that, if you would give your opening comments in 
about 5 minutes or so, we would appreciate it. Without 
objection, your written testimony will be entered into the 
record. And if you would go in the order that you were 
introduced, we would appreciate it. Again, thanks for being 
here.

 STATEMENT OF HON. KURT VOLKER, EXECUTIVE DIRECTOR, THE MCCAIN 
     INSTITUTE FOR INTERNATIONAL LEADERSHIP, ARIZONA STATE 
                   UNIVERSITY, WASHINGTON, DC

    Ambassador Volker. Thank you, Senator, for the 
introduction. Thank you for having me here. It is an honor to 
testify before this committee.
    I will just briefly say I have been following the 
discussion this morning about the attacks in Syria. It is 
absolutely outrageous to see chemical weapons used again in 
such a way in Syria. We should have intervened long ago in 
Syria. I wrote an article 5 years ago in April of 2012 arguing 
that, and it is inconceivable to me that we end up with a 
situation where Assad would be asserting the right to rule over 
all of Syria. At best, you have to see some kind of separation 
where the majority of people can live without the threat of 
that kind of regime lording over them in the future.
    To turn to the topic of the hearing, I would just like to 
make four brief points. I can elaborate on them, and I look 
forward to the question and answer.
    The first. It used to go without saying, but maybe it is 
worth stating very clearly again. A strong, healthy Europe, 
including a strong European Union and a strong NATO alliance is 
a vital national security interest for the United States. We 
are a country that is anchored on core democratic values. Our 
European partners are anchored on those values as well. We join 
together in dealing with challenges around the world. We face 
the same challenges, and the stronger Europe is, the better for 
the United States. The more our values advance in the world, 
the better for the United States.
    Second, Europe is facing almost unprecedented challenges, 
certainly unprecedented since the formation of NATO and the 
European Coal and Steel Community, which was the predecessor of 
the European Union. These are challenges both internal and 
external.
    Externally we see terrorism, we see the refugee flows, the 
migrants. We see Russia's aggression in Europe.
    Internally we see the rise of populist movements. We see 
the effect of these on non-integrated refugee and migrant 
communities. We see the financial crisis in the Eurozone, which 
is managed but not gone away. We see slow economic growth, and 
this has given rise to populist movements from the right and 
the left that are challenging the established institutions.
    So Europe is in very serious shape right now. That should 
be a concern of the United States because a strong Europe is in 
the United States' interest.
    Third, Russia has been a major player in seeking to create 
and exploit these circumstances in Europe; its aggression, as 
mentioned. It is occupying parts of Ukraine, of Moldova, of 
Georgia. It uses information warfare. It engages in massive 
propaganda. It uses energy as a weapon, is engaged in financing 
political movements, engaged in commercial deals that are 
seeking to influence the policies of governments in Europe. It 
is doing all those things.
    But fourth, Russia's actions, such as they are, are not the 
decisive factors influencing the direction of Europe. Europe, 
nonetheless, has strong democracies, strong institutions, 
strong media, strong commitment to core values. Russia is 
exploiting weaknesses where it can. It is creating problems 
where it can. But ultimately I believe that Russia is in a weak 
situation. It is playing a weak hand very well. But, 
nonetheless, Russia faces its own challenges.
    Ultimately, I think the strength of Western values and 
Western institutions, including the United States' values and 
U.S. institutions, will outlast all of this. But we do face 
this kind of activity from Russia, and it means that we need to 
be vigilant. We need to work to mitigate the impact of this, 
and we need to ride it out.
    So those I think are the key things to talk about in the 
discussion this morning, and I look forward to your questions, 
Mr. Chairman, and those of the other members of the committee. 
Thank you.
    [The prepared statement of Ambassador Volker follows:]

                   Prepared Statement of Kurt Volker

    Thank you Mr. Chairman, and all the distinguished Senators here 
today, for the opportunity to testify about the European Union, Russia, 
and U.S. interests more broadly on this, the 68th Anniversary of the 
North Atlantic Treaty Organization.
    It is an honor to be here.
    I would like to make four basic points. I'll come back to each of 
these in turn.

   First, a strong and healthy Europe, including the European Union 
        and a strong NATO Alliance, is a fundamental American national 
        security interest.

   Second, Europe is facing severe political, economic and security 
        challenges such as we have not seen since the establishment of 
        NATO and the European Coal and Steel Community, the EU's 
        predecessor, generations ago.

   Third, Russia is a major player in both creating and exploiting 
        these challenges, seeking to weaken Europe, weaken the 
        transatlantic tie, and advance perceived Russian interests in 
        the region and globally.

   But finally, all that being said, just because Russia is involved 
        does not mean it is the determining factor in Europe, nor that 
        it will be successful in the long run. Our values and our 
        transatlantic community are far stronger than that.

    To the first point. America is a nation founded on core values of 
freedom, democracy, rule of law, and human rights. These are universal 
values, shared by people around the world--though not always by 
governments.
    To the extent these values are respected and advancing around the 
world, America finds a more peaceful, more prosperous, and more 
friendly global environment. The realization of these values makes for 
a better and safer world. On the other hand, to the extent these values 
are being trampled, America will face a growing threat to its well-
being, interests and ultimately, its national security.
    Europe is the part of the globe where these values are most deeply 
embedded, and where governments join the United States in addressing 
challenges to shared values and shared interests around the world. A 
strong Europe, with democracy, prosperity, and security, is the best 
possible partner for the United States globally.
    Values-based democracy is not unique to Europe. Japan, South Korea, 
Australia and many other nations are part of this broad, values-based 
community. But Europe has long stood out for its cohesiveness and 
willingness to take on broader challenges in Alliance with the United 
States.
    A strong Europe is a strong trading partner. It generates jobs in 
the United States. It shares political influence globally. It has key 
votes in the United Nations, the G7, the IMF and other multinational 
organizations. It sends forces to join us in coalitions from 
Afghanistan to Syria and beyond. It provides massive humanitarian and 
development assistance. And Europe is facing threats from terrorism and 
from Russia and other quarters just as we are, and it is working with 
us to deal with them.
    A strong Europe is a core American interest, and the European Union 
has helped make Europe strong. By overcoming political divisions, trade 
barriers, internal customs and immigration obstacles, and a thousand 
other regulatory issues, the EU has made Europe a single market that 
works.
    How the EU evolves in the future, to take account of the democratic 
wishes of its own people, is for Europeans to decide. But whatever 
course this takes, it is clearly an American interest for Europe to be 
a strong and effective partner for the United States.
    Second, Europe, and the European Union specifically, are facing 
grave challenges, both internal and external. And these challenges 
spill directly into NATO as well.
    Internally, Europe's finances remain in intensive care. The Euro-
zone debt crisis has been managed but not solved. Growth has continued 
to be slow. Economic differences have drawn a wedge between Germany and 
EU members on the periphery. Weak economies have led to demands for 
change.
    Mass migration has overwhelmed the ability of many countries to 
absorb the newcomers. This has put pressure on internal security, 
schools, health systems and so forth. These new migrants come on top of 
already existing, and largely non-integrated immigrant communities in 
every European country. In most cases, these migrants are of different 
ethnicity, religion, culture and education from local populations.
    Europe's elites have sought to be compassionate to the migrants, 
but have been too slow and timid in responding to the concerns of 
European populations.
    This has caused a backlash among local populations, strengthening 
far-right and far-left movements, a rejection of elites, and a 
rejection of traditional politics and institutions, by many within 
Europe's populations.
    In the U.K., these perceptions contributed to the ``Brexit'' vote. 
With the U.K. now leaving the European Union, the EU itself is going 
through a crisis of defining what the EU will be in the future. While 
elites want to double-down on the unity of the EU, many in the public 
want to follow the British in re-asserting greater national identity.
    Externally, Russia has sought to overturn the post-Cold-War 
settlement of Europe by redrawing borders using military force. Russian 
forces occupy parts of Ukraine, Georgia and Moldova, and in a brazen 
show of force, Russia simply annexed the Crimean peninsula.
    But other external factors are also at play--the crisis in Syria, 
the lack of governance in Libya, the difficult partnership with Turkey, 
the competition with low-cost Chinese goods . . . all of these are also 
putting pressure on Europe.
    Third, Russia is a player in many of these challenges. It has 
helped create some of them--such as undermining security in Georgia, 
Ukraine, Moldova, and increasingly, the Balkans. And Russia has worked 
to exploit challenges facing Europe in order to weaken Europe and 
advantage Russia wherever possible.
    For example, in addition to its invasions of its neighbors, Russia 
has:

   Engaged massively in advancing propaganda throughout Europe--both 
        in local languages and among Russian speaking populations. This 
        includes major investments in RT and Sputnik;

   Used ``fake news'' and hacking and trolling to influence and 
        distort European public perceptions about issues;

   Used energy as leverage on European governments' decision-making;

   Used investments, trade deals, consulting arrangements, and more, 
        to create centers of economic interests within European that 
        are closely tied to Russia. These centers then act internally 
        in societies to pressure governments into more pro-Russian 
        policies;

   Engaged in direct ``financing''--for example, making funds 
        available to the National Front in France, or to Jobbik in 
        Hungary;

   Engaged in provocative military behaviors, such as air and sea-
        incursions, massive military exercises, and threats of nuclear 
        targeting and missile deployments, in order to raise the level 
        of concern in Europe about confronting Russia anywhere.

    Many of these actions sound familiar to American ears as well. But 
let us also be clear in Europe, as we are clear in the United States.
    But just because Russia is doing these things does not mean that 
Russia is the decisive Most of Europe's challenges are built on their 
own dynamics. Russia exploits opportunities, and is willing to be 
brazen in its actions. But it is not now, nor will it ever be capable, 
of defining the future of Europe or the United States.
    Russia faces major challenges of its own--from demographics to a 
declining and undiversified economy, corruption, political decay. It is 
playing a weak hand well--but make no mistake that it is a weak hand.
    Ultimately, while the values and institutions of Europe--and the 
United States--are strong, Russia's institutions are weak, and its 
people will have to reckon with the failings of their own leaders.
    Mr. Chairman, members of the Subcommittee, that concludes my 
statement. Thank you for the opportunity to testify at this hearing.
    The Chairman. Thank you.
    Mr. Baer.

  STATEMENT OF HON. DANIEL B. BAER, FORMER AMBASSADOR TO THE 
 ORGANIZATION FOR SECURITY AND COOPERATION IN EUROPE, DENVER, 
                            COLORADO

    Ambassador Baer. Thank you, Mr. Chair.
    Let me say at the outset that I join you and others in 
expressing condolences to the families of the victims of 
yesterday's terrorist attack. And I join Senator Rubio, Senator 
Cardin, and others in sharing the outrage over the attack 
yesterday in Idlib, which is still under investigation.
    Thank you for inviting me here today. When I was posted 
overseas, I was grateful to have both your support and the 
support of the ranking member. And I am glad to be here today 
with Ambassador Volker, and I agree with what he has just laid 
out.
    My written testimony also provides a fuller treatment, but 
I want to hit on three points.
    The first point is that the EU is an essential partner. I 
am a fervently pro-European American, and the U.S., in 
cooperation with the EU and its member states, with NATO and 
NATO allies and partners, has worked over the last 75 years to 
support an international system based on rules rather than on 
zero sum power calculations. The EU is a partner that shares 
our core values and can be counted on to work with us to seize 
the opportunities and confront the challenges of the 21st 
century.
    Second point. We face a shared challenge in Putin and 
Putinism. Vladimir Putin, so often portrayed as a strongman, is 
like many strongmen, perpetually insecure with good reason. 
Putin knows that the people of Russia are increasingly ill-
served by his regime and that at some point their 
dissatisfaction will be a greater force than he can contain. 
Putin's current foreign policy behavior is motivated almost 
entirely by domestic political pressures and we must be 
prepared for Putin's behavior internally and externally to get 
worse before it gets better.
    Putin has pursued a number of policies aimed at attacking 
democracy, political stability, and the strength of rule of law 
and institutions in the U.S. and Europe. These include the 
invasion of Ukraine and attempted illegal annexation of Crimea, 
attacks on the American elections in 2016, including the 
marriage of hacking, propaganda, human and technical 
amplification on social media, and passive and possibly active 
coordination with U.S. political actors aimed at fueling 
divisions in American society, undermining trust in our 
democratic institutions, elevating the candidate Putin saw as 
challenging American values, and undermining the candidate he 
thought would uphold American values. Attacks on elections in 
several European democracies, including the upcoming elections 
in Germany and France. Support for far right groups and parties 
in Europe. Exploitation of energy supply as a political tool. 
Support for corrupt political actors, including in EU member 
states. Efforts to maintain corruption and low-level 
instability in the Balkans. And massive use of Russia's 
propaganda organizations, including Russia Today and Sputnik, 
to pollute the public sphere and undermine public debate.
    Third point, what we can do to confront this shared 
challenge together. It is vital that the U.S. corrects course 
and that the current administration moves quickly from a set of 
alarming and ignorant comments to having a real policy and 
strategy for managing and mitigating Putin's negative impacts 
on world peace and security.
    Here are several components that should be part of a 
broader strategy for dealing with Russian aggression.
    One, together with the EU and NATO allies, we must support 
Ukraine. This means not only continuing our sanctions and our 
support for Ukraine's right to defend itself against Russian 
aggression, but also supporting the young reformers in civil 
society and parliament pressing for changes that will complete 
the revolution of dignity.
    Two, we need an independent commission to examine Russia's 
intervention in the 2016 U.S. elections. This should not be a 
partisan issue. The Russians view their intervention in our 
elections as a successful operation. We must understand how it 
was executed, what worked, what did not work, and how to defend 
ourselves in the future and how to effectively help our 
European partners defend themselves.
    Three, sanctions. I congratulate the bipartisan group of 
Senators, including many from this committee, who have 
cosponsored the Counteracting Russian Hostilities Act of 2017. 
The executive branch should also review existing sanctions to 
identify appropriate additional targets and do the ground work 
to prepare for additional sanctions under executive authority.
    Four, partnerships, both government-to-government and with 
civil society and independent journalists to expose the nature 
and extent of Russian active measures.
    Five, countering corruption should be explicitly identified 
as a U.S. national security priority. I applaud the inclusion 
of specific initiatives to support counter-corruption work in 
the draft legislation I just talked about.
    Six, the White House should instruct the interagency to 
develop a plan to enhance our law enforcement partnerships with 
Europeans to increase enforcement of criminal sanctions for 
money laundering and other financial crimes.
    Seven, send clear and sincere messages of friendship to the 
Russian people. Because Putin's grip on Russian media is so 
tight, this is increasingly difficult, but we should continue 
to seek innovative and effective ways of doing so.
    Eight, the United States and the European Union cannot 
counter Putin's aggression unless we continue to offer moral 
leadership. Putin can attack truth, but he cannot kill it and 
he will not win. We can counter Putin by defying his efforts to 
undermine our confidence in our democracy and by reaffirming 
our commitment to the universal principles that underlie it. We 
can counter Putin by making use of the Magnitsky Act and the 
Global Magnitsky Act to punish human rights violators. When we 
speak out on behalf of human rights, when we call for 
protections for the most vulnerable, when we lend our support 
to those who seek to hold their governments accountable, when 
we champion the anti-corruption reformers around the world, we 
are reaffirming the moral foundation upon which our country and 
our progress rests. We must never cease to work toward a more 
perfect union here at home, and we must never cease to be a 
champion for human rights in the world.
    Before closing, I want to offer a word of personal 
gratitude for the efforts of several of you on this committee 
on both sides of the aisle to ensure that during this unusual 
political time in the United States, voices of moral clarity on 
national security issues continue to be heard. There have been 
several times in recent weeks when I have been grateful to see 
members of the committee reaffirm an undying commitment to 
America's role as a beacon, as President Reagan put it, for 
those who must have freedom. Thank you very much for that.
    And I welcome your questions.
    [The prepared statement of Ambassador Baer follows:]

                  Prepared Statement of Daniel B. Baer

    Thank you Mr. Chairman and Mr. Ranking Member. When I was posted 
overseas I was grateful to have both of your support and, occasionally, 
your good advice, and I am grateful that you have invited me to testify 
today with Ambassador O'Sullivan and Ambassador Volker at this hearing 
on an important topic.
    I would like to focus my comments on three main points. First, I 
want to talk about the EU as a partner. Second the challenge that we 
face with respect to Vladimir Putin's Russia. And third, what we can do 
about it.
                        i. an essential partner
    The European Union is an essential partner to the United States--it 
is the only political actor in the world of comparable size to the 
United States in terms of population and economy that shares our core 
values and can be counted on to work with us--based on those values--to 
seize the opportunities and confront the challenges of the 21st 
Century.
    The European Union, like the United States, is founded on universal 
principles grounded in human dignity. Despite the challenges of the 
present political moment, and in spite of Brexit and other steps 
backward, we should remember that the European Union has been a 
remarkably successful political project. Even half a century ago, many 
would have scoffed at the idea that what began as a Coal and Steel 
Union would continue to develop and grow into a community of values 
that inspires individuals outside its borders and attracts aspiring 
member states. Yes, the institutions of Europe need constant 
improvement--as institutions do everywhere. But the idea of Europe is 
one that reaches far beyond the formal delineation of member states and 
institutions, and resonates in the hearts of millions of people across 
Europe and Eurasia and around the world. I am a fervently pro-European 
American. The European Union and the United States, along with NATO and 
other entities grounded in universal values of liberty, equality, and 
human rights, must work together to build a more peaceful, prosperous 
world.
    When I was U.S. Ambassador to the OSCE, the EU ambassador was my 
closest day-to-day partner in working to support a more democratic, 
peaceful, and prosperous Europe and Eurasia. We sometimes faced 
different political and policy constraints, but our cooperation was 
based on a confidence that we shared the same objective, and that our 
constituents would all benefit from the progress of open societies 
cooperating within a rules-based system.
    The cooperation that was achieved between the EU and U.S. (as well 
as Canada and other partners) in the process of applying sanctions to 
Russia for Russia's attempted illegal annexation of Crimea and ongoing 
violations of Ukraine's sovereignty and territorial integrity in the 
Donbas will, I think, be studied in the years to come. It was truly 
impressive the way that we were able to coordinate both at the 
political and the technical levels. People may not realize how 
complicated an instrument sanctions are--and that complexity could have 
stymied our attempts to deliver a common message to President Putin. 
But it didn't--we managed to impose several sets of sanctions with 
distinct purposes and targets in tandem with the EU, thereby maximizing 
the political impact of this policy tool.
            ii. the challenge we face in putin and putinism
    The U.S., in cooperation with the EU and its member states, with 
NATO and NATO allies and partners, has worked over the last 75 years to 
support an international system based on rules, rather than zero-sum 
balance of power calculations. The horrors of World War II inspired 
this project at its inception, the inhumane repression of Soviet 
totalitarianism was a constant reminder of the importance of persisting 
through the Cold War, and, for the last quarter century, our efforts 
have been focused on opportunity: welcoming tens of millions of people 
into the free world, supporting the growth of democratic institutions, 
and knitting together the players in the international system in a way 
that use of force becomes increasingly unlikely and win-win 
partnerships across borders become increasingly possible.
    The United States and the EU share an interest in a politically 
stable, economically strong European region--including not just EU 
member states but also aspirants and neighbors. I want to be very clear 
that this is also in the interests of the vast majority of the citizens 
of Russia. A strong, peaceful, economically successful Europe has the 
potential to be a partner to Russia and to help Russian citizens build 
the future they deserve.
    Vladimir Putin seeks to weaken Europe by undermining its political 
unity and democratic institutions. He does this not because doing so 
would be good for Russia, but because he sees a strong democratic 
Europe as a threat to his own grip on power--a grip that is maintained 
by a mixture of corruption on a truly epic scale and authoritarianism, 
including both the rampant use of political violence as a tool to quell 
dissent and almost total control over the media.
    Putin's attacks on European and American democracy are not 
motivated by ideological conviction but rather by a cold calculus that 
strong democracies and the rule of law pose a threat to his own 
kleptocratic authoritarianism. Putin, so often portrayed as a 
strongman, is, like many strongmen, perpetually insecure. With good 
reason: Putin knows that the people of Russia are increasingly ill-
served by his system, and that at some point their dissatisfaction will 
become a greater political force than he can contain. The organic 
growth of mass anti-corruption protests 10 days ago must have unsettled 
him. He knows the facts: Russia's economy is about the 15th largest in 
the world, around the same size as Spain's--it's GDP per capita is less 
than that of Uruguay. It is economically stagnant and with no near term 
prospects of sustained and significant growth--why? Because Putin and 
his cronies were so busy stealing money during the oil boom of the last 
decade that they didn't invest in diversifying the economy or the 
workforce. Public health problems limit life expectancy and harm 
productivity, yet Putin continues to drive toward an expensive military 
modernization. And his efforts to tighten his grip on power have nearly 
banished rule-of-law and free expression from Russia, damaging both the 
potential for incubating home-grown innovation and the attractiveness 
of Russia as a destination for foreign investment.
    Putin's current foreign policy behavior--including using military 
action to stir up nationalist fervor, presenting Russia as a supposed 
counterpart and counterweight to the U.S. or NATO--is motivated almost 
entirely by domestic political pressures (and certainly not consistent 
with the long term security and economic interests of most Russians). 
There is a direct link between Russia's external aggression and 
Russia's internal repression. Putin is doubling down on a losing 
formula; he's facing the ``dictator's dilemma'': once you've cheated 
and failed the people, you have to tighten your grip more and more and 
use more and more authoritarian tactics to ``keep a lid on the pot'' as 
discontent rises. Sadly, this suggests we must be prepared for Putin's 
behavior--internally and externally--to get worse before it gets 
better.
    So, where are we today? Putin has pursued a number of policies 
aimed at attacking democracy, political stability, and the strength of 
rule of law and institutions in Europe. These include:

   Invasion of Ukraine and attempted illegal annexation of Crimea. 
        After the attempted annexation of Crimea 3 years ago, which 
        Putin used to fan nationalist sentiment at home and distract 
        from domestic failures, Putin continues to fuel a conflict in 
        Eastern Ukraine, motivated in part by his fear that a 
        democratically successful Ukraine would prove to the people of 
        Russia that they have an alternative to Putinism.

   Attacks on the American elections in 2016 which aimed at fueling 
        divisions in American society, undermining trust in our 
        democratic institutions, elevating the candidate he saw as 
        challenging American values, and undermining the candidate he 
        knew would uphold American values in our foreign policy. A 
        combination of hacking, propaganda, human and technical 
        amplification on social media, and passive--and possibly 
        active--coordination with U.S. political actors led to what I 
        believe the FSB assesses as the most successful Russian 
        intelligence operation since the end of the Cold War.

   His attacks on a number of European democracies, including efforts 
        to sabotage or skew outcomes of upcoming elections in Germany 
        and France and in the recently held elections in the 
        Netherlands. Russia also seeks to undermine progress like 
        Montenegro's NATO accession that would make European countries 
        less susceptible to Russia's strong-arm tactics.

   Support for far right groups and parties in Europe, including 
        through financial support--for example loans to Marine Le Pen's 
        far right Front National party--and political propaganda.

   Exploitation of energy supply as a political tool accompanied by 
        Putin's moves to maintain European dependence on Russia and to 
        stymie efforts to enhance energy independence like those taken 
        by the EU.

   Amplification of the challenges attendant to the arrival of 
        refugees from Syria, Afghanistan and elsewhere in the Arab 
        world in Europe. Russia supports media and political actors 
        that fan xenophobia and anti-Muslim sentiment because Putin 
        knows that this divides European societies and puts strain on 
        European governments and leaders.

   Support for corrupt political actors, including in EU member states 
        like Bulgaria, which gives him a network to use to sabotage 
        progress on rule of law.

   Efforts to maintain corruption and low-level instability in the 
        Balkans and to retard progress there so that he can use the 
        threat of unrest in that region as a lever over the EU.

   Massive use of Russia's propaganda organizations, including RT and 
        Sputnik, to pollute the public sphere and undermine public 
        debate in Europe and the United States. Putin doesn't just seek 
        to influence specific outcomes in our politics, he seeks to 
        undermine fact-based discourse across the board, knowing that 
        this will undermine the credibility of our democratic process. 
        RT's motto ``Question more'' isn't about critical thinking, 
        it's a reflection of the Kremlin's desire to use what some have 
        called ``weaponized relativism'' and ``whatabout-ism'' to 
        encourage us to doubt everything, robbing us of the ability to 
        make fact-based judgments and values-based assessments. (It 
        should be noted that that Russia's own citizens are victims of 
        a similar kind of propaganda war on truth.)

    What all of these efforts have in common is their aim to undermine 
the political project that has been the story of the United States 
since our founding, and that has found its international complement in 
the work we have done with our European and other partners over the 
last three quarters of a century: to build the institutions and laws 
that can protect the freedom and dignity of individuals and be a 
foundation for peaceful and prosperous societies.
         iii. what we can do to confront this shared challenge
    It is vital that the U.S. corrects course and that the current 
administration moves quickly from a set of alarming and ignorant 
comments--paired with conspicuous silences--from the President, Vice-
President and others to having a real policy and strategy for managing 
and mitigating Putin's negative impacts on world peace and security. 
The news that President Trump has hired Dr. Fiona Hill as the Senior 
Director for Russia at the National Security Council is reassuring. Dr. 
Hill has tremendous expertise and experience; she is tough, she is 
decent, she is kind; I hope that the members of this Committee will 
engage with her, and I hope that the White House will welcome and act 
upon her counsel.
    The following is not a strategy or an outline thereof, but rather a 
non-exhaustive list of specific actions that should be part of a 
broader strategy for dealing with Russian aggression.

    1) The first thing that we should continue to do, together with the 
EU and NATO allies, is support Ukraine. This means not only continuing 
our sanctions and our support for Ukraine's right to defend itself 
against Russian aggression, but also, and particularly, supporting the 
young reformers in civil society and parliament who are pressing for 
the changes that will complete the Revolution of Dignity. The U.S. and 
EU have stood side-by-side in supporting the free choice of the people 
of Ukraine to abandon the ``Putin-light'' Yanukovych era and to move 
toward a European-style democracy. The best way to support the promise 
of a democratic future for Russia is to support democracy in Ukraine 
today. The transition from a corruption-driven economy to a competition 
based economy, and from a mobster-based political system to a 
democratic one, especially while fighting an invasion by a larger 
neighbor, is an enormous challenge. The progress has not been, and will 
not be, linear. But the progress must happen. It will require both 
pressure and support from Ukraine's friends. But we must not doubt the 
determination of the people of Ukraine to embrace the free, prosperous, 
secure future they know can only come with completing the work that 
began on the Maidan. The U.S. and the EU are both grounded in universal 
values--in the belief that all men and women are entitled to certain 
rights by virtue of their humanity. The people of Ukraine have made 
clear that they too want to be part of that community of values. We 
cannot be true to our values, we cannot be ourselves, if we do not have 
an answer to their calls for help on the road to a democratic future.

    2) We must have an independent commission to examine Russia's 
intervention in the 2016 U.S. elections. This should not be a partisan 
issue. The Russians' view their intervention in our elections as a 
successful operation. We must understand how it was executed, what 
worked, what didn't work, and how such efforts can be countered. This 
time their apparent target was Hillary Clinton. Next time it could be a 
Republican. We must acknowledge that any time Russia or another state 
intervenes covertly in our elections it is an offense against all 
voters because it disrupts and distorts the open contest upon which our 
democracy depends. Russia's aggression against the United States had an 
impact on our elections, and we must understand how that happened in 
order to defend ourselves in the future and in order to effectively 
help our European partners defend themselves.

    3) Sanctions are a policy tool that can be used both to impose 
consequences and to deter further hostile actions. I congratulate the 
bipartisan group of Senators, including many from this committee, who 
have cosponsored the proposed Counteracting Russian Hostilities Act of 
2017. This kind of legislation would enhance U.S. efforts to counter 
Russia's insidious attacks on American and European democracies. I hope 
that the bill will be marked up soon. In addition to legislative tools, 
the Executive branch should review existing sanctions to identify 
appropriate additional targets, and also do the groundwork to prepare 
for additional sanctions under executive authority as part of a broader 
strategy for constraining Russian aggression. As I said before, our 
cooperation with the European Union has increased the impact of our own 
sanctions and has helped us deliver a unified political message. We 
should continue to seek a coordinated approach with the EU wherever and 
whenever possible, while also being prepared to take the lead when 
necessary. We must also do better at explaining that while sanctions 
have costs for us, too, and particularly for our companies, these costs 
are part of an investment in reinforcing a rules-based system which is 
essential for the growth of international commerce in the long-term, 
and from which multi-national companies benefit today.

    4) We should invest in partnerships--both government-to-government 
and with civil society and independent journalists--to expose the 
nature and extent of Russian efforts. The White House should instruct 
the Director of National Intelligence to review our current 
intelligence sharing with allies and partners in Europe to identify 
additional opportunities, consistent with protection of sources and 
methods, to inform our partners about Russian efforts to attack their 
democratic processes. We should enhance our efforts to work with allies 
and partners to share information with our publics about Russian 
disinformation. The EU's ``Mythbuster'' products are a good example of 
how Russian propaganda can be exposed and defanged. In addition, we 
should recognize the role that civil society and independent 
journalists can play in unmasking Russian efforts to use propaganda or 
to coopt political discourse and advocacy campaigns to accomplish 
Russian objectives. The goal should not be to ramp up counter-
propaganda or to counter every lie, but to expose the nature and extent 
of Putin's efforts to manipulate the citizens of democratic countries.

    5) Countering corruption should be explicitly identified as a U.S. 
national security priority. Corruption rots societies from within and 
makes countries vulnerable to covert manipulation and subjugation by 
Putin's regime. Yanukovych's Ukraine epitomized this weakness. I 
applaud the inclusion of specific initiatives to support counter-
corruption work in the draft Counteracting Russian Hostilities Act. We 
should have a focused, outcome-oriented dialogue with the EU, as well 
as in bilateral channels and through other organizations including the 
OSCE, to identify additional steps we can take to support those working 
to attack corruption in European and Eurasian countries.

    6) The White House should instruct the interagency to develop a 
plan to review and enhance our law enforcement partnerships with 
European countries with a focus on increasing enforcement of criminal 
sanctions for money laundering and other financial crimes. There are 
laws on the books in many countries that are not being enforced to 
their full extent. This is a way to put pressure on Putin and his 
corrupt clique who are happy to steal from their fellow Russians but 
want the ability to buy real estate and go shopping in New York, Miami, 
Paris, London, and Vienna. The inclusion of the Financial Crimes 
provisions in the draft legislation referenced above is smart. There 
are very few honest billionaires in Russia; we should not be enabling 
the kleptocracy that poses a threat to us and to our allies.

    7) Send a clear and sincere message of friendship to the Russian 
people. Because of Putin's grip on Russian television, the main source 
of news for most Russians, it is increasingly difficult to speak 
directly to the people of Russia. But we should continue to seek 
innovative and effective ways of doing so. We should be clear that the 
international system we seek is one in which Russia is a constructive 
partner, not a destructive menace. We should be clear that we look 
forward to a day when partnerships between Russians and Europeans and 
Americans in business and the arts and civil society are easier to 
achieve and richer. We should be clear that we look forward to the day 
when there is a strong democratic, peaceful, prosperous Russian 
Federation that delivers on the aspirations of its citizens and can be 
a partner in tackling global challenges. The Russian people are victims 
of Putinism, and we must be clear that our concerns about the actions 
of their government in no way undermine our desire for friendship with 
them.

    8) The United States and the European Union cannot counter Putin's 
aggression unless we continue a legacy and tradition of moral 
leadership. The U.S. and EU share a commitment to the only kind of 
security system that can be stable and lasting: a system that is 
grounded in the protection of human freedom and dignity. This system is 
under attack militarily and politically from Vladimir Putin and others. 
These attacks are serious. But we must be confident and undeterred. For 
there has been no convincing moral or intellectual attack on the notion 
that free and open societies with respect for the rule of law and human 
rights are the fundamental building blocks of a Europe (and a world) 
that is prosperous, that delivers for its citizens, that is whole free 
and at peace. We didn't get it wrong; Putin can attack truth, but he 
cannot kill it, and he will not win. We can counter Putin by defying 
his efforts to undermine our confidence in our democracy, and by 
reaffirming our commitment to the universal principles that underlie 
it. We can counter Putin by making use of the Magnitsky Act and the 
Global Magnitsky Act to punish human rights violators. When we speak 
out on behalf of human rights, when we call for protections for the 
most vulnerable, when we lend our support to those who seek to hold 
their governments accountable, when we champion the anti-corruption 
reformers around the world, we are reaffirming the moral foundation 
upon which our country and our progress rest. We must never cease to 
work toward a more perfect union here at home. We must never cease to 
be a champion for human rights in the world.

    In closing, let me offer a word of personal gratitude for the 
efforts of several of you--on both sides of the aisle--to ensure that 
during this unusual political time in the United States, voices of 
moral clarity on national security issues continue to be heard. I had 
the honor of hosting a number of you in Vienna over the years, and I 
know from my time there how closely our European partners listen when a 
traveling U.S. Senator visits. There have been several times in recent 
weeks when I have been grateful to read the speeches or see the 
statements of members of this committee--statements that reaffirm an 
undying commitment to America's role as a beacon, as President Reagan 
put it, ``for all those who must have freedom.'' Thank you for that.
    I thank you for the opportunity to testify today and I look forward 
to our discussion. I will do my very best to respond to any questions 
that you might have.

    The Chairman. Thank you.
    Senator Rubio.
    Senator Rubio. Thank you.
    Thank you both for being here.
    You know, one of my concerns that I have in all this 
conversation about investigations is that--and I said this last 
week at the open hearing--we are missing the forest because we 
are focused on a couple of the trees in there. All this is 
relevant. We want to know the truth about everything. I am very 
proud of the work the Intelligence Committee continues to do. I 
know the chairman spoke about that in the opening of the first 
panel.
    But I think it is important for us to inform the American 
people as to what is happening. This is not just about one 
election or one candidate or one person. This is a broader 
effort of disinformation, misinformation strategically placed 
for purposes of creating all sorts of things.
    The first is undermining institutions. Ideally I think one 
of the things Vladimir Putin had in mind for the United States 
and ultimately for Europe is to argue that these democracies 
are fake. It is not real. These institutions you guys rely on, 
these elections are rigged, and we are going to prove it, 
planting stories and the like to undermine our confidence in 
institutions. I do not know if you both heard the quote that I 
had from Jeane Kirkpatrick that dates back to about 30 years 
about de-legitimizing institutions and how that ultimately de-
legitimizes our alliance and alliance of democracies.
    The other is undermining individual leaders. And that can 
range from a word that a lot of people have learned about over 
the last few months, ``kompromat,'' all the way to just 
strategically placed information for purposes of creating 
political problems, some of it fake, others not.
    And the third is for purposes of creating internal friction 
points. We know that there is a topic in a country. We know 
that topic is very sensitive. What stories can we create or 
what fracture lines can we create so that these people end up 
fighting against each other? And I think that is the broader 
challenge that we face is that this is in many ways an 
information war in which both the strategic leaking of real 
information combined with fake information and news, combined 
with some even more nefarious elements all are put together as 
part of a very strategically, well thought out, well practiced 
effort to undermine individuals and institutions and sow 
instability and conflict within individual countries. That has 
been the experience in 2016 in the United States in that 
election cycle. But I think that is what we are now seeing in 
places like France where we are seeing--and the German 
elections and the like.
    I wonder what you both view as the status of those efforts 
in France and in Germany, how those countries have reacted to 
it, and whether there are any lessons to be learned by the way 
they are addressing it.
    Ambassador Volker. I would be happy to go first, Senator, 
and thank you for the question.
    I agree completely with your characterization. This is a 
much larger, full-scale effort on the part of Russia to try to 
achieve strategic impact. It is about the direction of the 
European Union, the direction of NATO, the direction of 
individual countries in Europe and even the United States.
    As I said in my testimony, I do not think that ultimately 
they will be successful in this, but part of that has got to be 
our being aware of what the challenge is and pushing back on 
it.
    I would address a couple of things.
    One, in addition to the examples you gave, I asked some 
colleagues in Europe for more examples of what they see. One, 
for instance, preying on the weakness of traditional media 
because of financing in Europe. Sputnik and RT make themselves 
available as partners for media. And in Slovakia, for example, 
the national broadcaster wanted to work a contract with Sputnik 
to gain content. That only was stopped because of public 
outrage when it became public that that would be the case.
    In another instance, because of the paucity of party 
financing, political parties turned to businesses in Europe for 
support. Russia has invested in some of these businesses, and 
then those businesses put pressure on government to influence 
policy in ways that are favorable to Russia such as by lifting 
sanctions over Ukraine.
    So those are some of the mechanisms that we have seen in 
place.
    In the case of France, the National Front leader, Marine Le 
Pen, has publicly stated that she has received loans from 
Russia in order to sustain her political activities. We have 
not seen as direct an influence in party financing in Germany, 
but we do see a direct effort on the part of Russia to work 
with and influence individual politicians. And this has a very 
direct effect on the debate. And given the way the French 
elections will have a decisive impact on the direction of the 
European Union, I would expect a full-scale effort by Russia 
after the first round in the presidential election to do 
everything possible to discredit Marine Le Pen's opponent and 
leave her as the sole candidate standing who would have a 
chance of winning. It could be that that is Macron, and so I am 
confident that Russia is building the dossier right now to try 
to release on him after that first round.
    Ambassador Baer. Thank you. I agree with what Ambassador 
Volker has just said.
    And I agree with you, Senator, that this is a much broader 
effort. I think one of the things in my written that I said is, 
you know, RT's slogan is not about critical thinking. It is 
about calling everything into question and thereby undermining 
our ability to have the kinds of fact-based debates that should 
be the contest of ideas that our democracies depend upon and 
making it difficult to apply our values to the reality that we 
see in front of us.
    I think two of the friction points, for example, that you 
alluded to--one is the way we have seen Russia fan the anti-
refugee, anti-Muslim sentiment in Europe not because they are 
particularly--I mean, there is no ideology here. But because 
they know that puts a strain on European societies and European 
leaders and that that is a pressure point that they can turn.
    Another example would be the way they have co-opted some 
environmental NGOs, people who are genuinely committed to 
environmental progress, to use them as a way to try to increase 
European energy dependence on Russia. And I think we have to be 
attentive to these.
    In terms of your question about what is going on now, I 
think Clint Watts, who briefed the Senate Intel Committee last 
week, has done an amazing amount of open source research which 
he presented, including the research that as soon as they were 
finished training their sites and their bots and their 
distribution of information content vis-a-vis the U.S. 
election, the same actors, the same gray sites, the same bots 
started putting out junk about the French and German and Dutch 
elections. And so we have seen a continuation of these 
elections.
    I think one of the things going forward--I think we will 
need to do after-actions of the French election, after-actions 
of the German election to see what we can learn about what 
Russians did there.
    I think one of the things, going forward, would be to 
encourage our intelligence community to redouble efforts to 
identify things consistent with sources and methods that we can 
be sharing in terms of our intel context with our European 
partners to identify commonalities between what we saw in the 
U.S. and what we see there so that they can help defend 
themselves.
    Senator Rubio. I just think if we took a step back and put 
ourselves in the position of Vladimir Putin right now, as he 
looks at the news in the United States, he would say to 
himself, well, let me see. For what we did there, we now have 
one party basically accusing the President of the United States 
of potentially not being legitimate because of ties potentially 
with us. We have all this controversy swirling. He looks at the 
other party and says the other party is at war with the 
intelligence community and the former President. So he looks at 
all this chaos, and I think he has got to feel pretty good 
about the end product here. In essence, he basically has--what 
they did basically has us fighting against each other all day 
long as opposed to solving some of our challenges or coming 
together on some of the other challenges before our country.
    And that is the broader point that I think we are missing 
here. This is not so much about end results, a specific winner 
or a specific loser. It may be. But it is even more than that. 
It is about the state of affairs in a country where he now has 
the standing, he thinks, to go around the world and say, 
America? You mean the America that is fighting against each 
other every day on this, that, and the other, an America where 
the political parties cannot even agree on the basic validity 
of some of their institutions from time to time, the America 
where you have this sort of--I am not talking about political 
debate. These are all legitimate. But the internal strife that 
we are creating here--and I think all of us in this process 
need to ask ourselves about it because some of these are 
legitimate issues. I am not asking that they not be covered. 
But all of this back and forth that seems to dominate our 
coverage politically today, all of this undermines us 
internationally. And I think he points to it as a fruit of this 
labor.
    And so when he does that to a country in his periphery, it 
is important and it matters. When it does it to the United 
States of America, when he begins to undermine not just our 
internal confidence but global confidence in our institutions 
and our leadership and our ability to govern and our ability to 
lead on the global stage, he is achieving far more than perhaps 
he even thought possible when he began this endeavor.
    I guess I am using you guys to make the argument is this 
not more than just about an individual election, who won, who 
lost. It is actually a direct attack on our elections process 
and ultimately our system of governance and its credibility and 
legitimacy.
    Ambassador Volker. I wholeheartedly agree, Senator. I think 
that is exactly what it is about. I think that Russia is trying 
to weaken the EU, weaken NATO, weaken the transatlantic link, 
weaken our institutions, weaken the belief that people have in 
our institutions and the value of democracy and our own values 
that underpin that, freedom, human rights, rule of law, 
believing that everything is all the same or everything is 
relative or that only a strong leader is going to make a 
difference.
    As you said--and I completely agree--Putin believes that 
instability is in his interest. We believe stability is in our 
interest. We believe security is in our interest. He believes 
lack of security creates opportunities to exploit change.
    When we look at an intervention somewhere in the world, we 
look at an exit strategy. We want to know what is going to work 
to leave stability behind. Putin looks at it as an opportunity 
and does not care about an exist strategy. He can leave anytime 
he wants and does not take responsibility. So there are vast 
differences between them here.
    As you framed this issue of internal strife and how that 
plays into Putin's hands, what I would say is that two points 
seem to be clear to me, and I would hope that they sink in in 
our domestic dialogue to make this easier.
    One of them is that it is incontrovertible that Russia has 
tried to influence the events inside the United States, 
influence politics. It does not mean specifically going to a 
polling station and rigging the vote in that machine. But it 
means, as a strategic matter, Russia is trying to have an 
influence on us just as they do all over the world. No surprise 
there. Nothing new there. This is not something that was 
created in 2016.
    At the same time, the fact that Russia is doing this has 
not had a strategic impact. We are, nonetheless, a strong 
country with strong values and strong institutions, and despite 
the fact that Russia has been active does not mean that they 
have been able to tweak us. And as a result of that, I think 
that we ought to be able to have these two points in front of 
us and then move on to talk about how do we actually address 
this, how do we mitigate Russian influence, how do we build, as 
Ambassador Baer said, a strategic approach to dealing with 
Russia as we see it now.
    Senator Rubio. I apologize. I need to go vote. I hate 
missing votes.
    Senator Cardin. Let me thank both of for being here.
    Ambassador Baer, I want to start with you if I might 
because this is an extraordinarily important moment for the 
OSCE. You have one of its member states that has set a horrible 
record in violating every one of the principle tenets of the 
Helsinki Accord in its activities in Ukraine. So you have a 
country that has shown a total disrespect for the Helsinki 
principles. And of course, Helsinki itself operates through 
consensus. So it is going to be challenging to see the OSCE be 
able to take action. But it is clear that those of us who 
believe in the importance of our commitments on territorial 
integrity, the use of negotiating differences, not using force, 
and standing up for democratic principles, not attacking other 
countries, democratic institutions, all of the above--so the 
question is how can we be more effective in countering the 
Russian aggression.
    What can we do with those countries that are not only 
threatened but are committed to the principles of democratic 
institutions? How can we be more effective in countering 
Russia, recognizing that nothing is off the table when it comes 
to Russia? They will invent news as we have seen. They will 
lie. They will use social media to elevate its importance. They 
will do all of the above.
    So what is your recommendation for the United States 
Senate, for U.S. leadership and how we can galvanize a more 
effective response to protect democratic institutions that we 
have worked for 70 years to not only preserve but expand in 
Europe and, of course, now the attack on the United States?
    Ambassador Baer. Thank you, Senator, for that very easy 
question.
    [Laughter.]
    Ambassador Baer. You know, obviously, I share your 
assessment that when we have an organization that is based--I 
mean, it goes back even further than that. In some sense, the 
OSCE, the Helsinki Decalogue, was a delicate balance between 
the West and then the Soviet Union and associated states. And 
the balance was we cared about open societies and they cared 
about preserving borders. And we said, okay, we will 
acknowledge borders in exchange for you caring about open 
societies. And when the side that cared about borders is now 
violating borders willy-nilly, it poses an even greater 
challenge to our work within the OSCE.
    I think one of the things that we have going for us in the 
long run is geography. If you look at a map of the world 
without the names of countries on it and you said which country 
should care most about the inviolability of borders, the fact 
that Russia is undermining the rule of law with respect to 
sovereignty and territorial integrity is insane from a national 
security long-term strategy of the Russian Federation.
    Senator Cardin. Let me stop you on that point because when 
I met with the State Department to go over the appointment of 
our Ambassador to the OSCE and your name was mentioned, they 
said we want Daniel Baer because he is a Russia expert.
    How do you change the equation for Russia? You are leading 
to it is counterintuitive to their geography. But how do you 
change the equation? Because right now it looks like they are 
trying to create space by instability so that they can bring 
down democratic systems of government because they need an 
autocratic, corrupt system for Mr. Putin to conduct his 
business. They want space so they can increase their influence, 
which is good for their local popularity. How do you change 
that equation?
    Ambassador Baer. Well, I think in the short term it will be 
difficult to change the equation. All we can do is attempt to 
apply consequences for Putin's negative actions. But in the 
long term, we have to be confident that, as Ambassador Volker 
said, you know, Putin is playing a weak hand, and it is a hand 
that is getting worse by the day, not better by the day.
    And there will be a post-Putin perestroika. There will be a 
day when the people of Russia have the chance to make their own 
future and a future that delivers. And one of the things that 
we can do today to make that day both sooner and easier for the 
people of Russia is to support Ukraine because the greatest way 
to support the future of democracy in Russia in the year 2017 
is to support the democratic future that is being built in 
Ukraine today. And so I think that is one of the concrete areas 
of focus.
    I think another really important thing is for us not to 
engage in the kind of unilateral moral disarmament that Putin 
wants. Part of the reason he deploys active measures, part of 
his own international discourse is to try to draw an 
equivalence between himself as leader of Russia and the 
President of the United States of America. And I think it is 
very important that the President of the United States of 
America, whoever that is, understands that as President of the 
United States of America you are not only the leader of the 
United States of America, you are the leader of the free world 
and to embrace that not as some kind of added task that takes 
up time but as a fundamental component of your job. And I think 
that continued moral leadership, which I emphasized in my 
testimony, is also important to playing the long game in this.
    Senator Cardin. Let me just underscore that. I met a couple 
of times this last 2 weeks with Vladimir Kara-Murza, who, of 
course, has been poisoned twice by Russia. He is here in the 
United States with his family. I quote him frequently. He was 
sitting where you are sitting. He said we are not asking 
America to come to our defense. All we are asking America to do 
is stand by your values and do not give legitimacy to Mr. 
Putin. This is not all about the Russian people. It is about 
the Putin government. And we have to stand true.
    To say in closing, it has also been striking me right now 
with President el-Sisi of Egypt here--and we will have a chance 
to talk to him shortly--that so far we have not seen any 
statement come out of the White House on American values, which 
are universal values of good governance and fighting corruption 
and fighting the rights of civil society. And when they are 
absent from the discussion, it just leads to that void that 
gives the Putin types more leeway to expand their influence.
    The Chairman. Senator Shaheen.
    Senator Shaheen. Thank you, Mr. Chairman.
    And thank you both for being here. Sorry that the Senate 
schedule has meant that so few of us can be here to question 
and hear what you have to say.
    I want to ask you, Ambassador Baer. You talked about the 
importance of Putin seeing consequences of his actions. I share 
the concerns that Senator Cardin raised. For me, one of the 
most disconcerting aspects of their interference in U.S. 
elections is this effort to manipulate our news and our social 
media to their benefit and the failure I believe of the 
American to really recognize that.
    So what kinds of responses do you think are appropriate--I 
guess I would ask you both this--in response to the actions 
that Russia has taken? What should we be looking at?
    Ambassador Baer. Thank you, Senator. I share your concern. 
I think while many people may be aware of the fact that Russia 
deployed active measures during the course of the 2016 
election, it is probably less well understood and part of the 
reason why I believe that we need to investigate this--it is 
less well understood how a story started with an FSB agent or a 
GRU agent in Moscow, was then packaged by Sputnik or RT, pushed 
out to a number of either paid or just willing collaborators 
often sitting in Eastern Europe who then propagated to gray 
sites that are not overtly part of Russian propaganda and 
then----
    Senator Shaheen. Then it gets picked up.
    Ambassador Baer. Then it gets amplified through bots and 
retweeted. And then importantly, somebody in New Hampshire 
posts it on their Facebook page without knowing that what they 
are putting on their Facebook page is Russian junk. And they 
deserve to know how that happened because that is something 
they have an interest in. And the voter in New Hampshire 
deserves to know whether she or he had more impact than a GRU 
agent in Moscow. So I share your sense that this is an 
important area to focus on.
    I think in terms of consequences, everything should be on 
the table. We talked about sanctions. I think additional 
sanctions--obviously, there have been sanctions imposed already 
for the actions that Russia took during the course of our 
election. I think the executive branch, as well as the 
legislative branch, should be looking at what additional 
sanctions may be appropriate. I think another thing that an 
independent commission could do would be to recommend certain 
appropriate consequences that could be considered by the Senate 
or the House or the executive branch.
    I think, in addition, we should be thinking about 
delivering consequences at both a political level in terms of 
what we withhold. We know that Vladimir Putin cares greatly 
about his stature on the world stage. The United States has the 
ability to influence the view of Vladimir Putin on the world 
stage, and we should be thinking about that. And I think we 
should not lose sight of the fact that Vladimir has his own 
staged election coming up next year in which he will have to 
steal votes again. He will have to manipulate resources in 
order to get the returns that he wants. And shining a spotlight 
on that, calling into question his legitimacy--he cannot win 
without stealing. I think that is obviously an opportunity 
where he has vulnerabilities as well.
    Senator Shaheen. Let me ask. Senator Young and I have 
legislation that would close the loophole in the Foreign Agents 
Registration Act that would require RT to comply, which they 
are avoiding right now because they claim to be organized 
through another entity. Do you think that is helpful to be able 
to push back in that way?
    Ambassador Baer. I think that in general, yes, it is 
helpful. We want to be able to do it in a way that it does not 
get used against us an instance of us curtailing media freedom. 
Now, RT and Sputnik are not news agencies. They are propaganda 
arms of the Russian Government.
    Senator Shaheen. And clearly that is what they have already 
tried to do. The headline is ``What is Next: Public 
Executions.'' But this is not an effort to curtail media 
freedom. This is an effort to make sure that they comply with 
the law just like every other entity complies with the law.
    Ambassador Volker.
    Ambassador Volker. Thank you, Senator. And I would agree.
    First off, we have laws on the books, as you say, that 
media companies and others are required to comply with. We do 
need to make sure that we are enforcing our own laws equally 
across the board.
    Senator Shaheen. Right.
    Ambassador Volker. The second thing to add to some of the 
answer that Ambassador Baer gave, I think in pushing back on 
this, we need transparency, so shining a light on what is 
actually happening as much as possible. I think that is itself 
one of the most powerful ways of diminishing the impact of what 
Russia is doing.
    Second, as Senator Cardin said, I would agree. Standing 
very forcefully and articulately on behalf of our own values to 
say what those are, to make sure that people in countries 
around the world, whether they are own or whether they are in 
Russia, know what it is we are standing for.
    And then thirdly, I think we need to be taking the 
initiative on policy issues. Putin has done a great job of 
seizing the initiative and then we have been floundering and 
responding late and insufficiently. Take, for instance, 
Ukraine. I think if it starts looking like Russia is failing in 
Ukraine, that is going to be a different narrative for Putin 
than what it looks like today. So I think we need to be taking 
the initiative to push back on Russia and Ukraine to be 
supporting the Ukrainian Government more, providing more 
armaments there, providing some more monitors from a NATO 
perspective inside Ukraine, not letting people forget about 
Russia's occupation of Georgia, not letting people forget about 
the occupation in Moldova, and exposing some of the things 
happening internally to democracy activists and NGOs and 
political parties inside Russia. Those are the sort of pushback 
that I think we need to be doing.
    Senator Shaheen. Great.
    I know I am out of time, Mr. Chairman, but do you both 
agree that we should provide defensive weapons to Ukraine?
    The Chairman. Lethal.
    Senator Shaheen. Yes.
    Ambassador Volker. Lethal weapons I would say. Lethal 
weapons to Ukraine, and I would not emphasize defensive. I 
would emphasize those that are necessary for Ukraine in order 
to have a capability military able to defend its own territory.
    Senator Shaheen. Ambassador Baer.
    Ambassador Baer. Yes.
    Senator Shaheen. I think the committee generally agrees.
    The Chairman. We passed unanimously a piece of 
legislation--what--3 years ago out of the committee? So it has 
been a shame that not only not that has been supplied, but 
intelligence that might make it look like we are operational.
    So we thank you both for your testimony.
    Senator Cardin. Mr. Chairman, on that point, I agree with 
you completely. Considering the last witness, I remember the 
pushback we got was that it would cause a problem with Europe. 
It was interesting. We had, of course, the representative of 
Europe said they want to work closely with us. We have got to 
lead. I will just make that point.
    The Chairman. Yes. I would agree with that 100 percent, and 
I hope we will do so on Iran very soon.
    With that, guys, we thank you both for your testimony. I am 
sorry that it was shortened a little bit because of votes and 
what is getting ready to happen. But we thank you both for 
being here.
    There will be additional questions, as you heard a moment 
ago, and the record will be open until the close of business 
Thursday.
    Thank you both for your service to our country, for your 
contribution in this effort.
    And with that, the meeting is adjourned.
    [Whereupon, at 12:34 p.m., the hearing was adjourned.]

                   Additional Material for the Record


              Responses of David O'Sullivan to Questions 
                    Submitted by Senator Ben Cardin


                       EUROPEAN UNION RESILIENCE

    Question. What specific steps is the European Union taking 
to counter Russian government aggression in states within the 
EU area, including newer member states in the southern and 
eastern areas of the EU? How are democratic and security 
vulnerabilities in EU states addressed in the Multiannual 
Financial Framework for 2014-2020? What flexibility exists to 
respond to emerging threats from Russia against EU states 
within this budget?

    Answer. In March 2016, the EU Member States confirmed the 
five principles which guide EU's relations with Russia. These 
principles include among others, the principle of strengthening 
relations with the EU's Eastern Partners and other neighbours, 
in particular Central Asia as well as the principle of 
strengthening resilience of the EU (energy security; countering 
hybrid threats, including disinformation).
    Addressing Russia's ongoing disinformation campaign is a 
key component of the EU effort to strengthen its resilience. 
Since September 2015, the EU has a dedicated team in the 
European External Action Service working on strategic 
communication, including positive fact-based messaging on what 
the EU actually does in the region as well message to raise 
awareness on and counter disinformation. Last July in Warsaw 
the EU and NATO agreed to cooperate on hybrid threats, 
strategic communication, cyber security and defence. Our EU, 
U.S. and NATO experts closely consult and cooperate in this 
endeavour. EU Member States are also building up their 
capabilities in this area. In addressing this challenge it is 
essential that join up our resources and put in place shared 
capabilities that support, complement and reinforce each other.

               ASSISTANCE TO VULNERABLE NON-MEMBER STATES

    Question. What amount of annual assistance has been 
provided since 2014 to non-EU states to counter Russian 
aggression, via the Eastern Partnership, Black Sea Synergy, or 
directly to individual states? What areas of governance and/or 
security does this assistance address? What portion of this 
assistance directly supports civil society?

    Answer. In line with the European Neighbourhood Policy, the 
EU wishes to strengthen the prosperity, stability, security, 
and good neighbourliness in the region. This cooperation 
addresses issues that go beyond borders and that are better 
addressed in a regional context than by countries individually. 
It contributes to confidence-building, fostering exchanges, 
dialogue, best practice and political cooperation between EaP 
Partner countries, EU Member States and the EU. To reach these 
objectives, the EU uses mainly the European Neighbourhood 
Instrument.
    The EU cooperation with the Eastern Partners focuses on the 
four key priority areas based on the Eastern Partnership Summit 
Declaration adopted in Riga in 2015: 1) Economic development 
and market opportunities; 2) Strengthening institutions and 
good governance; 3) Connectivity, energy efficiency, 
environment and climate change; 4) Mobility and people-to-
people contacts. The programme identifies key actions within 
these priority areas, in line with the ``20 Deliverables for 
2020'' and the key global policy goals set by the U.N. 2030 
Agenda for Sustainable Development and the Paris Agreement on 
Climate Change. Complementary support will be provided to cover 
cross-cutting themes (civil society, gender equality and non-
discrimination, as well as strategic communication).
    The indicative allocation for ENI Regional East programmes 
in 2014-2020 is =741,000,000-=906,000,000. Average annual 
spending is approximately EUR 117.6 million. This ENI East 
regional cooperation does not include 6 bilateral envelopes in 
the framework of ENI and other instruments like NIF, DCI, 
European Instrument for Democracy and Human Rights (EIDHR) for 
EaP.
    Regarding civil society, the European Commission is now 
implementing the highest amount of financial assistance made 
available for civil society in the Neighbourhood East 
(indicatively up to =176m for 2014-2017 from ENI, DCI, EIDHR).
    The country specific financial allocation (in millions) is 
as follows:
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>



                ASSISTANCE TO SUPPORT REFORMS IN RUSSIA

    Question. How is the EU supporting Russian-led efforts 
toward reform, given the link between the Putin regime's 
repression of democracy and human rights in its own country and 
its efforts to do the same abroad? What amount of annual 
assistance have been provided since 2014 to this end?

    Answer. European Instrument for Democracy and Human Rights 
(EIDHR) and the Civil Society Organisations (CSO) programme 
have been the main actions in support to strengthening human 
rights and civil society since 2014. Currently (April 2017), 
under EIDHR and CSO older and newer calls, 28 projects for 
about =15 million are ongoing in Russia. As a result of the 
call for proposals launched in 2015, the EIDHR is funding 10 
new projects for =6 million (2014-2015 allocation) and the CSO 
programme supports seven new projects for =4 million (2014-2017 
allocation). Funding covers topics such as: training and 
capacity building actions for human rights activists, support 
to media, freedom of association, local governance; vulnerable 
groups such as low income communities in remote areas, orphans, 
HIV positive, people with disabilities.
    The European Commission launched a new =6 million call for 
proposals for Russia under the EIDHR in January 2017 with the 
following priorities:

    Priority 1: Raising openness, communication and 
        accountability of public bodies, support to effective 
        functioning of democratic and human rights institutes 
        and mechanisms

    Priority 2: Promotion of tolerance, inter-cultural 
        understanding and social cohesion, promotion of freedom 
        of speech

    Priority 3: Support to human rights defenders, civil 
        society initiatives and organisations, support to 
        independent media

    Projects under this call still need to be selected as the 
deadline for applying is 21 April.
    The Partnership Instrument provided in 2015 a =1.2 million 
grant to the EU-Russia Civil Society Forum and supports public 
diplomacy activities aiming to present EU activities in Russia 
to Russian think tanks, media and the general public. In 
addition to the EU funds for civil society and human rights, 
some Member States also have programmes supporting those areas 
in Russia. Significant additional resources (around =20 million 
annually) are put into Eramus+ programmes with Russia, to 
favour academic and student mobility and some other education-
related activities.
                              ----------                              


              Response of Hon. David B. Baer to Question 
                    Submitted by Senator Todd Young

    Question. Mr. Baer, in your prepared statement, you note 
Moscow's ``exploitation of energy supply as a political tool'' 
and Putin's efforts to ``maintain European dependence on Russia 
. . . .'' What is your assessment of current EU member country 
energy dependence on Moscow, and how specifically should the 
U.S. and the EU work together to reduce the vulnerability of 
our European allies to Moscow's use of energy as a weapon of 
coercion? I would appreciate it if your response addressed, at 
a minimum, 1) the role of potential or increased oil or natural 
gas exports from the U.S. to Europe; 2) associated 
infrastructure investments that would be helpful or necessary 
on both sides of the Atlantic; and 3) joint private sector 
research and development opportunities related to reducing 
energy consumption and increasing the use of alternative 
sources of energy.

    Answer. Thank you, Senator, for the important question 
about European energy security. One of the silver linings of 
Vladimir Putin's invasion of Ukraine and attempted annexation 
of Crimea was that it catalyzed political will in Europe to 
tackle the collective action problem of European energy 
security.
    In general, in order to make sure that energy is a 
commodity rather than a political vulnerability for Europe, 
European leaders need to continue work along three lines of 
effort.
    First they must continue to diversify available sources of 
energy. Putin has proven adept at using Russia's dominance of 
the European energy market as a political cudgel. But, as with 
many such relationships, the dependence is mutual. Russia's 
undiversified economy needs the income from sales of gas to 
Europe. Europe will have a stronger negotiating position on 
price as well as be less vulnerable to political exploitation 
if it works to continue to diversify potential sources of 
energy, including by looking at American LNG imports, of 
course.
    That leads to the second project, which is diversifying 
European energy infrastructure, particularly infrastructure 
that allows for imports that aren't controlled by Russia. The 
new LNG-compatible port terminals that have been built in the 
Baltics and Scandanavia will reduce dependence on Russia even 
before they reach full capacity. In contrast, enlarging the 
Nord Stream pipeline by building Nord Stream 2 should be viewed 
with skepticism because it deepens the long-term European 
dependence on Russian gas by expanding and diversifying 
Russia's infrastructure as an exporter (potentially allowing it 
to bypass Ukraine, and to use the threat of doing so as a 
political lever) without meaningfully diversifying Europe's 
import infrastructure.
    The third project is to continue to ensure that Europe 
itself functions as a single market for energy, so that it 
truly is a commodity once it is imported. Unifying the market 
has had great political impact already, because it forces 
Russia to negotiate with Europe as a whole, rather than picking 
off countries one by one, and it removes some of Russia's 
ability to target specific countries for political pressure in 
the form of energy cuts. Techniques such as reverse flow--such 
as when Slovakia sold gas back to Ukraine when Moscow choked 
the supply of gas to Kyiv--can further reduce the use of gas as 
a political tool.
    The United States should continue to support all of these 
steps, and should also be prepared to work with our European 
partners who are not in the EU to help them ensure that Russian 
efforts to use energy as a coercive political tool are 
effectively mitigated.

                                  [all]
</pre></body></html>
